<html>
<title> - OPEN FORUM ON HUMAN RIGHTS AND THE RULE OF LAW IN CHINA</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
        OPEN FORUM ON HUMAN RIGHTS AND THE RULE OF LAW IN CHINA
=======================================================================


                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 10, 2003

                               __________

 Printed for the use of the Congressional-Executive Commission on China








         Available via the World Wide Web: http://www.cecc.gov

                                __________


                       U. S. GOVERNMENT PRINTING OFFICE
86-862                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001












              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

JIM LEACH, Iowa, Chairman            CHUCK HAGEL, Nebraska, Co-Chairman
DOUG BEREUTER, Nebraska              CRAIG THOMAS, Wyoming
DAVID DREIER, California             SAM BROWNBACK, Kansas
FRANK WOLF, Virginia                 PAT ROBERTS, Kansas
JOE PITTS, Pennsylvania              GORDON SMITH, Oregon
SANDER LEVIN, Michigan*              MAX BAUCUS, Montana
MARCY KAPTUR, Ohio*                  CARL LEVIN, Michigan
SHERROD BROWN, Ohio*                 DIANNE FEINSTEIN, California
JIM DAVIS, Florida*                  BYRON DORGAN, North Dakota


                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State*
                 GRANT ALDONAS, Department of Commerce*
                D. CAMERON FINDLAY, Department of Labor*
                   LORNE CRANER, Department of State*
                   JAMES KELLY, Department of State*

                      John Foarde, Staff Director
                  David Dorman, Deputy Staff Director

* Appointed in the 107th Congress; not yet formally appointed in 
  the 108th Congress.

                                  (ii)
















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Zhou, Roy, president, the Association of Chinese Students and 
  Scholars of the New York Area, New York, NY....................     2
Crook, Frederick, independent consultant, the China Group, Great 
  Falls, VA......................................................     3
Chen, Yali, research assistant, the Center for Defense 
  Information, Washington, DC....................................     5
Dorjee, Lhundup, a Washsington, DC area resident speaking on 
  behalf of the Capital Area Tibetan Association [CATA]..........     6
Mr. Tenzin, a Washington, DC-based Tibetan exile who recently 
  visited Tibet for the first time...............................     8
Turkel, Nuri, general secretary, the Uighur American Association, 
  Washington, DC.................................................     9
Walton, Greg, a research consultant focusing on the Internet's 
  impact on human rights, New York, NY...........................    11
Huang, Ciping, Overseas Chinese Democracy Coalition and 
  Independent Federation of Chinese Students and Scholars, 
  Whitehouse, OH.................................................    13

                                APPENDIX
                          Prepared Statements

Zhou, Roy........................................................    28
Crook, Frederick W...............................................    30
Chen, Yali.......................................................    36
Dorjee, Lhundup..................................................    38
Turkel, Nury.....................................................    39
Walton, Greg.....................................................    41
Huang, Ciping....................................................    45













        OPEN FORUM ON HUMAN RIGHTS AND THE RULE OF LAW IN CHINA

                              ----------                              


                         MONDAY, MARCH 10, 2003

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The open forum was convened, pursuant to notice, at 2 p.m., 
in room 2200, Rayburn House Office Building, John Foarde [staff 

director] presiding.
    Also present: Steve Marshall, senior advisor; and Lary 
Brown, specialist on labor issues.
    Mr. Foarde. Welcome, everyone, this afternoon to the 
Congressional-Executive Commission on China's open forum. The 
open forum is a format of our biweekly issues roundtables that 
we have been holding for just about a year now.
    It is a special format in that we open it to anyone who 
wishes to register with us in advance to speak for 5 minutes on 
any subject within the mandate of the Commission, that is, on 
human rights and the development of the rule of law in China.
    In the other issues roundtables that we hold, we normally 
invite specific speakers to address specific issues. But the 
open forum gives a chance for people who might normally not be 
able to appear on a specific issue panel to come and share 
their views with us. So, we are delighted to continue this 
format once in a while, and delighted that we have eight 
panelists this afternoon to share their views with us.
    We are going to hear four panelists first, then four after 
a very brief break to change seats. Then we will do questions 
and answers and figure out the most convenient way to address 
those questions. We may have to set a microphone up over here 
on the side and let someone sit down there.
    Each panelist is permitted to make an oral presentation for 
5 minutes and then we will go on to the next speaker. We will 
have a question and answer session after everyone has spoken, 
so some of the points that you may not have had time for, we 
hope we will be able to get to during the Q&A session.
    Our timer up here is set for 4 minutes, then I will give 
you a signal, either orally or by flashing a yellow card, that 
will tell you that you have 1 minute left to wrap up your 
remarks.
    We have a very interesting set of speakers this afternoon, 
a very diverse set. Without further ado, I would like to 
introduce the president of the Association of Chinese Students 
and Scholars of the New York Area, Mr. Roy Zhou, who will help 
us.
    Please, Mr. Zhou.

 STATEMENT OF ROY ZHOU, PRESIDENT, THE ASSOCIATION OF CHINESE 
    STUDENTS AND SCHOLARS OF THE NEW YORK AREA, NEW YORK, NY

    Mr. Zhou. Good afternoon. I am very delighted to come here 
and give this presentation to you on behalf of the Chinese 
Students and Scholars studying in the New York area. We are the 
largest group of its kind here in the United States, and the 
only regional one.
    Today, I want to talk about this special group of people 
who are of increasing importance to both America and China--the 
Chinese students and scholars who are studying and living here.
    I want to talk about three issues. First, most Chinese 
students come to the United States for the academic excellence 
and the opportunity to pursue their studies at American 
universities.
    However, there are certain people who have been driven by 
some interests and advocated the so-called ``China Threat'' 
concept, and claim that many Chinese students are spies.
    Recently, the New York Times reported that the FBI is 
recruiting Chinese students as spies for the United States 
Government. This has brought an in-depth discussion in the 
Chinese community. Most foreign students follow the rules and 
regulations well and are not interested in getting involved in 
politics. The Chinese community was silent in the past, but 
this does not mean we have no position. We want to stay away 
from politics and from spy issues.
    We came to the United States for academic and personal 
development and for improvement of the U.S.-China relationship, 
not for spying.
    Second, Chinese students receive acceptance into U.S. 
institutions through competitive exams and the rest of the 
admission process on an equal basis with American students. 
Unfortunately, many dreams are broken because of unreasonably 
high rates of visa refusals, including many of those who were 
granted a full scholarship at prestigious U.S. institutions.
    A number of Chinese students who returned to China during 
the winter break were either refused a visa to reenter or had 
to wait for almost 6 months for a security check in China.
    For example, there are at least four students from Stony 
Brook University who were not able to return to school for the 
spring semester and they are still waiting in China. They have 
to postpone their studies until the new semester starts.
    For these students, the delay of visas imposed big 
difficulties to their study and personal life. For example, 
Heng Zhu, a post-doctoral scholar at Yale University in its 
Department of Molecular, Cellular, and Developmental Biology, 
was refused the visa.
    The Wall Street Journal reported his story, saying, ``His 
absence of work due to the visa issue has derailed work under a 
$1.5 
million National Institutes of Health grant to understand how 
thousands of genes work, a process that could ultimately aid 
drug discovery.'' Clearly, the loss of such students and 
scholars undermines the U.S. national interest.
    Third, we respect U.S. policy on homeland security and we 
firmly support the war on terror. However, treating foreign 
nationals nicely will help the U.S. global image.
    We are wondering if it is possible for the Bureau of 
Citizenship and Immigration Services [BCIS] to consider 
providing a new service to accept the security check 
application prior to departure from the United States for 
foreign aliens already in the United States.
    Accredited foreign aliens will receive expedited processing 
when they re-apply for a visa in their home country. If 
possible, this would be beneficial to foreigners, especially 
enrolled students, while not compromising homeland security 
measures.
    At last, we wish the two great nations prosperity and 
friendship. We also hope to be able to contribute to the 
increasing U.S.-China communications on politics, economics, 
trade, culture, and education, and help improve the relations 
between the two countries.
    Thank you for this opportunity to share my thoughts with 
you. I would be glad to try and respond to any questions you 
may have. Thank you.
    [The prepared statement of Mr. Zhou appears in the 
appendix.]
    Mr. Foarde. Thank you for your presentation. You bring up 
some very serious issues. I hope, in the question and answer 
session, we can have a minute to discuss them further. Thank 
you.
    Our next panelist is an independent consultant currently 
with The China Group, but had a long and distinguished career 
with the U.S. Department of Agriculture as an agricultural 
economist, and a student of Chinese rural areas and Chinese 
agriculture.
    I have benefited many times in the past from your 
presentations and look forward to hearing from you today.
    Fred Crook.

STATEMENT OF FREDERICK CROOK, INDEPENDENT CONSULTANT, THE CHINA 
                     GROUP, GREAT FALLS, VA

    Mr. Crook. I appreciate the opportunity to come and 
participate on this panel. The topic that I would like to talk 
about is living conditions in rural villages. I would like to 
talk about three things.
    The first one is the wide gap between urban and rural 
living standards. The second thing, is the growing tension 
between 
China's basic-level institutions, the popularly elected village 
committees, with the Party-appointed village party branch.
    The third topic is the specter of famine that lies over 
many Chinese villages to this day and the effects that it is 
having.
    I think probably one of the most serious problems China 
has, is that in the last 50 years China's leaders have 
constructed a two-sector society, a modern, urban, wealthy 
China and a backward, rural, and poor China.
    This ``house divided'' is a major weakness in contemporary 
China. To unite this house into a major Asian power will take 
enormous effort and resources and may require decades to 
accomplish.
    So many researchers in the United States and visitors go to 
China, and they usually go to Beijing, Shanghai, and Xian, and 
that is it. I have spent most of my career traveling in rural 
areas, so I thought I would be of most benefit to the 
Commission by giving you a little bit of a view of what I see 
in rural areas.
    If you turn to the second page there, on the top is the 
Shanghai skyline. This is epitomized by cars, metros, good 
roads, department stores, Nanjing Road, sports stadiums, 
apartments with air conditioning, good secondary and primary 
schools, universities, McDonald's, Baskin-Robbins, Pizza Hut, 
international Internet bars, and five-star hotels.
    If you look at the picture below, this is a picture I took 
in 1988 in Heilongjiang. What do you see in rural areas? You 
see lots of bicycles, crowded, small buses, small stores, a few 
houses with air conditioning, poor primary schools, small 
restaurants, limited Internet access, two-star hotels, if you 
can find them, and so on.
    If you turn to the third page, I have a chart there that 
shows rural per capita income, and there is a massive gap that 
the Chinese leadership is having to deal with now. I took the 
picture below in Shanghai in August 2001.
    If you turn to page four, you can get a quick view of 
consumer durable goods ownership, urban versus rural. So, for 
example, about 13 percent of urban Chinese households now have 
computers.
    If you look back and forth between these two columns, there 
is a vast gap between what urban households have and what rural 
households have. I would guess that most of my Chinese 
colleagues here today came from urban China. There is a vast 
difference from what they experienced and what happens in rural 
areas.
    If you look at the per capita income or per capita 
consumption in kilograms, you can see that urban people have a 
wide variety of food, and much more nutritious, healthy diet. 
They eat fewer grains, eat lots of fruits and vegetables, lots 
of pork and beef, more eggs, more milk, and so on. People in 
the rural areas eat a lot of rice and wheat products. They eat 
far fewer vegetables, far less fruit, and far less meat.
    If you take a look on page five, I think this diagram is 
extremely important. What we have here is the village committee 
up in the upper left-hand corner, that has now been 
democratically elected. They may not be perfect elections, but 
they are democratically elected.
    What really drives rural China is the Party branch. The 
people in the Party branch are selected or appointed by the 
Party committee at the township level, so they manage all the 
things that go on in rural China, all the resources.
    They are the ones responsible for managing the land, labor, 
and capital. There is a tension between these two now, and how 
that plays out is going to be very important.
    Finally, improved security. I usually go into Chinese rural 
houses and I find that they are stocking up grain because, in 
1958 through 1961, and so on, a lot of people starved to death. 
Almost every Chinese farm family had someone in their family 
that died, and that specter is still hovering over the rural 
areas. Thank you.
    [The prepared statement of Mr. Crook appears in the 
appendix.]
    Mr. Foarde. Thank you very much for the food for thought. 
We will come back to some of these questions in the question 
and 
answer session.
    Our next speaker is a research associate at The Center for 
Defense Information here in Washington, DC. Her name is Chen 
Yali. We are very happy to have you here, Ms. Chen. Please, go 
ahead.

  STATEMENT OF CHEN YALI, RESEARCH ASSOCIATE, THE CENTER FOR 
              DEFENSE INFORMATION, WASHINGTON, DC

    Ms. Chen. Thank you very much. My topic here today is about 
China's press freedom. I believe most of you already have an 
idea about the state of China's press freedom. I think most 
people sitting here will agree if I say a Chinese journalist 
does not have as much freedom as an American journalist. But I 
do not know how many of you will agree with me if I say most 
Chinese journalists have a large amount of freedom in reporting 
and writing.
    When news about harassment and the prosecution of Chinese 
journalists come out to the Western newspapers continuously, it 
might be counterintuitive to say that Chinese journalists have 
more freedom in reporting and writing than many Westerners 
believe.
    Here, I want to make two points, actually, but I will focus 
on the first one. First, increasing diversity and freedom of 
the Chinese press. The second point is self-censorship. I will 
focus on increasing diversity and freedom and freedom of the 
Chinese media in my presentation, but would like to talk more 
about censorship later on.
    The development of China's press freedom, I believe, can be 
generalized as two steps forward, one step back. The steps 
forward area is often the area that falls off of the Western 
world's radar screen: the socioeconomic development. If you 
look back to the Chinese newspapers 15 to 20 years ago, you 
will see reporting of the economic and social problems are far 
more restricted than now.
    I still remember I wrote the first article criticizing the 
Chinese Government's corruption problem in 1998 immediately 
after Zhu Rongji, our premier, took power. However, it was 
unthinkable in 1993, or even 1994, to write such a story.
    Also, another example is about family planning policy. It 
is one of the most holy policies from 1975 to 1998 for China. 
However, I was encouraged by my own editor in China to write a 
story about the policy debate on whether the family planning 
policy should go on. I can give you more examples later on, if 
you want.
    The recent changes I see in the Chinese media is in the 
reporting on political policy, the area that is often a ``one 
step forward and half step back'' area. Recently, you might see 
a widely published article lashing out on North Korea and 
advocating why China should join the United States to pressure 
North Korea for China's own security.
    Another example I can cite is a report on a study by 
Chinese scholars on why there is no direct causal relationship 
between educational level and the success of the direct 
election mechanism.
    Chinese journalists are not faced with the ``to-be-or-not-
to-be'' questions such as, ``should we speak truth or not,'' or 
``shall I challenge the censorship or not,'' every day. Most 
Chinese journalists, including me, 3 years ago were just 
running around to news conferences or following leads that 
seemed interesting.
    There is no evil mastermind sitting in my office watching 
every step I take or every word I write. For 85 to 90 percent 
of my work, I write about whatever I want to write. Chinese 
journalists who cover economic news probably have more freedom 
than I do, since I am working for the op-ed page.
    I want to give three measures that Chinese journalists are 
using to create press freedom for themselves. One, is many 
journalists are trying to push the limit of political 
correctness--political, here, is in the literal sense--and are 
successful in doing so.
    For example, we got a line saying we could not quote or 
write about a very liberal economist called Mao Yushi, but 
actually I did a full story about his opinions in the 
newspaper. I saw all kinds of cases in the Chinese media that 
Chinese journalists are trying to push the limit.
    There are also counter measures in the Chinese media. When 
one newspaper is closed down or purged, the majority of editors 
and reporters will be transferred to another newspaper.
    I want to emphasize here that I am not suggesting that 
Chinese journalists are as free as American journalists in 
writing and reporting. We are far from that. However, I am 
trying to explain that it is difficult to generalize whether 
Chinese journalists have, or do not have, free press freedom in 
a black and white manner.
    As a transitional society inevitably heading for 
liberalization and social plurality, China should be treated 
with a more nuanced approach, and therefore the targeting 
policy from the outside world to help promote press freedom 
will see better results. Thank you.
    [The prepared statement of Ms. Chen appears in the 
appendix.]
    Mr. Foarde. Thank you, Ms. Chen. Very interesting views. We 
will come back to them.
    Our next speaker is a Tibetan living here in the United 
States, Mr. Lhundup Dorjee.

  STATEMENT OF LHUNDUP DORJEE, A WASHINGTON, DC AREA RESIDENT 
            SPEAKING ON BEHALF OF THE CAPITAL AREA 
                   TIBETAN ASSOCIATION [CATA]

    Mr. Dorjee. I speak here today on behalf of the Capital 
Area 
Tibetan Association. Before I begin, I would like to thank the 
Commission and staff for providing us this opportunity to speak 
here.
    As I speak here right now, members of the Tibetan community 
here, joined by our American friends and supporters, will be 
gathered in front of the Chinese Embassy to mark the 
anniversary of a very tragic event that took place in Lhasa, 
the capital city of Tibet, 44 years ago.
    On this day in 1959, Chinese Communist troops massacred 
thousands and thousands of Tibetans, men, women, children, 
monks, nuns and lay people, who had gathered together in 
spontaneous demonstrations to protest the Chinese occupation of 
their country and to protect the life of their young leader, 
the Dalai Lama.
    Finding indiscriminate fire insufficient, Chinese troops 
rained artillery shells into the crowds of innocent people to 
kill the maximum number. The Chinese soldiers spent days 
turning over the dead bodies of monks in the hope of finding 
the Dalai Lama's dead body.
    Yet, for us Tibetans, the events of that day 44 years ago 
resonate with meaning and significance far greater than the 
tragedy of the day. It was a day on which the heroism, courage, 
and bravery of our people found expression as never before in 
the face of China's brutal might, and stirred the collective 
consciousness of new Tibetan identity, one that united all 
Tibetans, from Kham and Amdo regions, as well as Central Tibet.
    The Chinese Government describes March 10, 1959, as 
quelling of a rebellion. We Tibetans call it the Tibetan 
National Uprising day and we proudly commemorate it every year 
in the free world, remembering our common sacrifices and 
rededicating ourselves to the cause.
    Much water has flowed through the river Tsangpo in Lhasa 
since then. Or maybe, tears would be more apt, instead of 
water, for the suffering of our people under Chinese occupation 
was unprecedented and immeasurable. Or maybe it should be 
blood, for more than a million Tibetans have died as a result 
of their rule.
    Sadly, the situation in Tibet is not getting any better 
today. The veneer of economic development taking place there 
notwithstanding, a veneer that many well-meaning observers seem 
to take as a sign of progress.
    I would urge the members of the Commission to look beyond 
this veneer in assessing the situation in Tibet, for it masks 
issues of far greater and critical importance for Tibetans.
    These are the transfer of Chinese settlers into Tibet, 
reducing Tibetans to a minority in their own homeland, economic 
and educational marginalization of ethnic Tibetans, gross 
violations of human rights, severe political repression, 
systematic efforts to 
undermine Tibetan culture and language, and environmental 
degradation.
    While the fact of economic development taking place must be 
accepted by us Tibetans, it should be pointed out that since 
the Chinese Government is implementing economic development as 
part of a strategy to consolidate its colonial rule in Tibet, 
and not for the sake of improving the lives of ordinary 
Tibetans, the results of this economic development, in fact, 
tend to exacerbate the negative impacts of many of the issues 
mentioned earlier and will worsen the situation further in the 
long run.
    His Holiness, the Dalai Lama, the leader of all Tibetan 
people, has long advocated and pursued a path of peaceful, 
negotiated solution by working with the Chinese. However, the 
Chinese Government has spurned his efforts and vilifies him 
repeatedly.
    It is said that China is banking on a strategy of waiting 
for him to die to solve the Tibetan problem for good. It will 
be tempting for China to think this will be a smart option, 
since the Dalai Lama is a powerful symbol of the Tibetan 
freedom struggle and unifies all the Tibetans.
    In spite of the visit of a delegation of exiled 
representatives to Tibet in the past year, it is not clear if 
China really has had a genuine change of heart and has reviewed 
this strategy. If not, it would be a very serious mistake.
    In my opinion, if the Tibetan problem is not resolved 
during the lifetime of the 14th Dalai Lama, China can be 
assured of long-term instability in the region.
    We hope that the new generation of leaders in Beijing will 
put aside their arrogance and suspicions and find the wisdom to 
realize that the only path that can be good for both the 
Tibetan people and the Chinese people is one that involves 
working with His Holiness, the Dalai Lama. Thank you.
    [The prepared statement of Mr. Dorjee appears in the 
appendix.]
    Mr. Foarde. Lhundup, thank you very much.
    Well done. I must say, all four of the panelists deserve 
credit for being so disciplined. Let me invite you all to stand 
and take a seat, if you can, in the first row. We will have the 
other four panelists up, and then go to the question and answer 
session when their presentations are complete.
    Mr. Tenzin, Ms. Huang Ciping, Mr. Greg Walton, and Mr. Nury 
Turkel, please.
    [Pause]
    Mr. Foarde. Our second group of speakers is now with us and 
we will begin, as we usually do, from window to wall, with 
another Tibetan speaker, also living here in the United States.
    Mr. Tenzin, please.

 STATEMENT OF MR. TENZIN, A WASHINGTON, DC-BASED TIBETAN EXILE 
         WHO RECENTLY VISITED TIBET FOR THE FIRST TIME

    Mr. Tenzin. Thank you. First of all, I want to thank you 
for 
letting us speak on these issues. I am fortunate to get this 
opportunity to speak because of my recent visit to Tibet.
    I got an opportunity to go to Tibet a few months back. It 
was my first time. I always wanted to travel to Tibet because, 
growing up as a young Tibetan in exile, all the stories that 
you hear from your parents about Tibet, the beauty, and the 
stories of your ancestors, and all that. I pretty much longed 
to go to visit Tibet.
    This happened to me recently, that I got a visa to go to 
Tibet. Fortunately, being an American citizen, that gave me the 
opportunity to visit. So after arriving myself, I felt such joy 
for me to land in my own country.
    I was quite amazed to see Lhasa, the capital city, itself 
because of the buildings and everything. But as days went on, I 
met a few people who were willing to talk to me about the 
situation in Tibet. I see their faces now.
    I got to talk to them and they mentioned to me about the 
railroad the Chinese Government is building going to Lhasa, and 
they feel that once this is built, it is going to be over for 
the Tibetans. Right now the Tibetans aren't getting the jobs. 
They are looked down on and it is very difficult to get jobs 
unless they speak Chinese or they have good Chinese language 
skills and so on. So in general for Tibetans, it is very 
difficult. So if the railroad is built, there will be more 
Chinese coming in. So that is why some of them told me about 
this.
    There were a few people also who came from outside from 
another town to work, looking for jobs in Lhasa, and I met 
these two at the Tibetan tea shop. I talked to them a little 
bit. Of course, they were a bit nervous.
    But I asked them if they knew how was it to get a job. They 
said it is very difficult. They had been looking for weeks to 
get a job. Finally, they found one and it pays less than $2 a 
day, and they work for 11 or 12 hours per day. This is helping 
building, like 
hotels and offices, and so on.
    The interesting thing is that for the same work for the 
Chinese is, like, double the salary. The Chinese get more than 
the Tibetans. The shop owner I was talking to, I was asking her 
about the school, how her children go to school.
    She said it is very difficult to send her only child to 
school because it is very expensive and she cannot afford it. 
So these are some of the things that I have seen when I 
traveled inside the Tao region, as well as in Eastern Tibet.
    As I came to Eastern Tibet, I met my relatives for the 
first time. They told me about the situation. Every time I met 
people, old people there, they tell me about the stories of the 
Cultural Revolution, the suffering they went through during 
those times.
    One of my relatives has also been working for 12 yuan, less 
than $2 per day. So it is not just this one region, it is all 
over that Tibetans are paid less. So the living conditions, 
based on this, I can 
answer afterward. But it is very poor for Tibetans in general.
    Mr. Foarde. Mr. Tenzin, thank you very much. Very sobering 
views and testimony. We will come back in the question and 
answer session.
    Our next speaker is the general secretary of the Uighur 
American Association in Washington, DC, Mr. Nury Turkel.
    Nury.

    STATEMENT OF NURY TURKEL, GENERAL SECRETARY, THE UIGHUR 
              AMERICAN ASSOCIATION, WASHINGTON, DC

    Mr. Turkel. Good afternoon, ladies and gentlemen. It is a 
real honor to be here to address some of the issues which are 
of great concern to the Uighur people.
    The political situation in East Turkestan has been 
increasingly worsening, especially after September 11, 2001. 
Here, I would like to address a few important issues for your 
attention.
    China's ``go west'' campaign has an inherently destructive 
nature. Migrant Chinese have been the major beneficiaries of 
Western development programs in East Turkestan, but Uighurs are 
paying the highest price for it.
    Chinese observers believe that the Chinese western 
development policies are designed to bring more prosperity to 
the west. Such a believe contradicts the reality where 
unemployment and economic disparity are rampant among Uighurs. 
Media reports indicate that the government favors Chinese who 
have migrated to the area over their more qualified Uighur 
counterparts in its hiring practices. Xinjiang Communist Party 
Chief Wang Lequan's recent statement further disproves such a 
belief.
    At a recent meeting, when Wang stated that it is wrong to 
believe that economic development would help reduce and 
eliminate separatist activity in Xinjiang, so the Government's 
priority should be cracking down on separatist activity.
    This reveals that the Chinese Government's real intent of 
developing the west is not to win over ethnic minorities in 
those areas, but attracting more ethnic Chinese immigrants into 
the region in order to permanently change the demographic 
structure of the region in favor of ethnic Chinese.
    The changed demographic structure, in turn, will help the 
government's long-term policy of assimilating Uighurs into 
Chinese. China's discriminatory policies against Uighurs are a 
blatant 
violation of its obligations under the U.N. Convention on the 
Elimination of Racial Discrimination, to which China has been a 
signatory country since 1982.
    So called ``western development'' now only facilitates 
China's attempt to make the Uighurs second class citizens in 
their own homeland, but also destroy Uighur cultural identity.
    The pace of destruction is breathtaking. Today, the ancient 
city of Kashgar, that is considered as the cradle of ancient 
central Asian civilization, is virtually unrecognizable.
    At the same meeting, Wang also called for a fight against 
Uighur dissent in an ideological front. He stated, ``Xinjiang 
must promote patriotism and the unity of nationalities 
education, and resolutely condemn the distorted history 
promoted by ethnic separatists, including the history of ethnic 
development and religious progress.''
    Locking up historians, burning books, destroying historic 
sites, and imposing Chinese language education are not a recent 
phenomenon, but rather a continuing effort by the Chinese 
regime to wipe out the Uighurs from the face of the earth.
    The Uighurs have long suffered such destruction since 1949, 
especially during China's notorious Cultural Revolution. Now 
they face even greater danger. The intentional destruction of 
the Uighur culture violates the U.N. convention that was also 
adopted at United Nations Educational, Scientific, and Cultural 
Organization [UNESCO] and signed by China.
    Uighurs are discriminated against not only at home, but 
also in other Chinese cities. The Uighurs are not only facing 
discrimination and ill treatment in East Turkestan, but are 
also experiencing the same in Chinese cities.
    It has been reported that the Uighur residents of Beijing 
have been evicted and even put on a train to be sent back to 
their hometowns. Harassment by the police, rejection of 
lodging, and 
disapproval of business licenses are commonplace in inner 
Chinese cities, thanks to Chinese propaganda that portrays the 
Uighurs as ``terrorists.''
    The indoctrinated belief of the local Chinese residents and 

government's tacit approval of mistreating Uighurs have created 
enormous frustration and humiliation among the Uighurs.
    Some of the Uighur ``fortune seekers'' are forced to come 
to inner Chinese cities to look for a job because of the 
limited employment opportunities at home, where all the jobs 
are taken away by 
migrant Han Chinese.
    Denying access to information, Chinese authorities have 
been enforcing strict media censorship in past decades. This is 
true even during times of natural disasters. It has been 
reported that the Chinese authorities have rejected foreign 
journalists' requests to cover the deadly earthquake that took 
more than 266 lives, injured 4,000, and left many homeless in a 
cold winter.
    Despite being in danger of being arrested and expelled, 
some journalists entered the area. The remaining ones only used 
photographs provided by the Chinese state-owned media.
    The TV network is mainly broadcasting pictures of Chinese 
soldiers helping thousands of victims. However, no independent 
observers have been admitted into the disaster areas, and 
witnesses are disputing the official death toll and the 
effectiveness of rescue efforts.
    The existence of the Uighur people is under extreme threat. 
The human rights situation is worsening day by day as the 
civilized free world is watching the perpetuators continue 
devastating and waging cultural genocide against the Uighur 
people.
    Mr. Foarde. I will have to ask you to stop there, but we 
will take it up some more in the question period.
    Thank you very much.
    Mr. Turkel. Thank you.
    [The prepared statement of Mr. Turkel appears in the 
appendix.]
    Mr. Foarde. Our next speaker comes to us from New York 
City, where he is an independent consultant, Mr. Greg Walton.
    Greg.

STATEMENT OF GREG WALTON, A RESEARCH CONSULTANT FOCUSING ON THE 
        INTERNET'S IMPACT ON HUMAN RIGHTS, NEW YORK, NY

    Mr. Walton. Thank you. Thank you to the CECC staff for 
arranging this forum.
    I am an independent research consultant focused on the 
impact of the Internet on human rights and democratic 
development, particularly in Asia. I have no particular 
affiliation to any organizations; however, I have working 
relationships with a number of international human rights NGOs 
and other groups and individuals engaged in advancing human 
rights in China--particularly in the digital sphere--through 
activism, or ``hacktivism.''
    By ``hacktivism,'' I mean specifically the adoption and 
extension of universal human rights principles and mechanisms 
to the needs of an information-based society, including where 
this runs counter to the preference of authoritarian regimes.
    An information society increasingly employs advanced 
information and communications technologies in a double life. 
These technologies are, more often than not, derived from high-
tech military research programs.
    My research suggests that so-called neutral dual-use 
technology can easily be abused in the hands of totalitarian 
governments. In fact, in the absence of democratic 
accountability, nationwide data base-driven surveillance 
systems will be used against the interests of the general 
public in a highly dangerous way.
    This afternoon I would like to tell you about the 
development of two parallel networks of routers that typify for 
me the development and the contradictions inherent in the 
Chinese Internet today.
    One set of these routers restricts and chokes off the free 
flow of information, the other network, seek to expand the 
democratic sphere.
    In the first story reported last week by the Associated 
Press [AP], it is reported that Chinese Internet users are 
``suffering sharp slow-downs in access, which industry experts 
blame, in part, on heightened efforts by the Communist 
government to police on-line content.''
    BBC confirmed that these problems have worsened as security 
operations in China have been stepped up as the annual National 
People's Congress meeting continues in Beijing.
    The Commission staff will probably be aware that these 
problems date back to October 2002, when packet-sniffer 
software was installed. This software briefly holds each chunk 
of data that passes in and out of the Chinese Internet and 
screens it.
    Beijing has effectively built an on-line barrier around 
China that requires traffic in and out to pass through just 
eight gateways. The result is a huge bottleneck and much slower 
service, progressively slower service, especially, as I said, 
at so-called sensitive times.
    Drawn largely from the latest research by a company known 
as Dynamic Internet Technology, Incorporated, I would like to 
briefly highlight our initial understanding of how the system 
is working today, speculate about its capacity, and underline 
the reasons for its failure.
    The second story I would like to touch on briefly today, 
and this is the other set of Internet routers, is from the 
story in E-Week Labs Review, in which the magazine is 
evaluating a beta version of the developer's edition of the 
Six/Four System by the hacking group ``Hacktivism.''
    This software became available last week under the 
Hacktivismo Enhanced-Source Software License Agreement 
[HESSLA]. The Six/Four System is a peer-to-peer technology 
system that does make it possible to carry out almost any 
Internet activity, both securely, and more importantly, 
anonymously.
    E-Week Review has found that this software has a huge 
potential in this regard, but at this date it has not quite 
achieved its goals. This network, which relies on many node 
clients with very few trusted peers to handle the routing, is 
understandably very slow right now, because the network is so 
small. Also, the system's capabilities are very raw, in that 
the developers have yet to develop an interface.
    I anticipate that once this tool is ready, it will be 
widely distributed in China. My predication today is that 
ultimately the Six/Four System will render state censorship 
impossible. I think, in fact, I will submit the rest of the 
testimony in writing to the Commission, perhaps because it goes 
into considerable technical detail.
    Basically, the bottom line of what I am saying today is 
that China really does not have a legal system, in the sense 
that it does not have the rule of law. Its economy exists 
without transparency and, as the Commission is no doubt aware, 
is rife with corruption. I would ask the Commission to further 
investigate the reality of Internet censorship in China and, 
where appropriate, apply pressure to all levels of the Chinese 
Government.
    I also urge the Commission, particularly, to examine the 
role of U.S. corporations engaged in exporting censorship, as 
well as infrastructure, to the Chinese state.
    Finally, I would urge the Commission to take every 
opportunity to remind governments and corporations that 
international legal instruments are very clearly a matter of 
the free flow of information.
    [The prepared statement of Mr. Walton appears in the 
appendix.]
    Mr. Foarde. Thank you.
    As you know, the Commission has already looked into a great 
many of the issues here, and you gave us more information just 
now. So, thanks for doing that. We will stay on top of those 
issues, because they are very important.
    Our next speaker is representing, today, the Overseas 
Chinese Democracy Coalition and the Independent Federation of 
Chinese Students and Scholars. She is Ciping Huang, who is our 
old friend, who has appeared many times before, particularly at 
these open forum sessions. Welcome again, Ciping Huang. Please 
go ahead.

STATEMENT OF CIPING HUANG, OVERSEAS CHINESE DEMOCRACY COALITION 
                 AND INDEPENDENT FEDERATION OF 
         CHINESE STUDENTS AND SCHOLARS, WHITEHOUSE, OH

    Ms. Huang. Thank you to the Commission for the opportunity, 
and thank you for trying to accommodate my schedule.
    My name is Ciping Huang. I represent the Overseas Chinese 
Democracy Coalition and the Independent Federation of Chinese 
Students and Scholars.
    My topic today is about women's issues in China, which I 
have wanted to make since I attended the roundtable discussion 
on the same subject organized by this Commission on February 
24, 2003. I was not satisfied with the way the subject was 
presented, which was on a similar path with the other subjects 
that were presented to this Commission.
    I feel this Commission should be concentrating more on the 
Chinese human rights issues due to its founding background in 
the permanent normal trade relations [PNTR] debates and its 
mission to monitor human rights and the development of the rule 
of law in China.
    I feel that it is very important to focus on the Chinese 
economic situation. However, focusing on the Chinese economic 
situation with respect to American business enterprises is not 
as important to me as it is to focus on the Chinese human 
rights conditions and the needs and demands of the Chinese 
people.
    For this Commission, I hope we will have more fellow 
Chinese testify on the human rights abuses conducted by the 
Chinese Government and its officials--testimony that the 
Commission has been short of. Here again, I would like to offer 
assistance and help when you need it to locate victims and 
witnesses to testify in this regard.
    Talking about women's issues, I want to point out the 
conditions described in your February 24, 2003 discussion are 
not quite to the essence of the problem. Also, today, since the 
session is so short and I can only give you a brief 
introduction, I will submit a longer written statement to you.
    On the one side, I understand there is a time limit to 
discuss a very complex problem. I understand the scholars' and 
experts' 
insight and detail on certain aspects.
    On the other side, I have learned that many scholars have 
restricted themselves from harsh criticism of the Chinese 
Government in concern for the typical retaliation from that 
government, which would simply not allow them to back to China 
or sabotage their studies and discredit them afterward. The 
Chinese Government has arrested and harassed the Chinese-born 
scholars in the past; they have upgraded this harassment from 
green-card holders to U.S. citizens, and now the threat and 
fear has reached even further to the United States. The arrest 
and trial of several scholars, such as Gao Zhan, Li Shaomin, 
and Xu Zerun, are just a few of their escalated episodes that 
have received media attention, but there were many more.
    Dr. Jianli Yang was detained 10 months ago without any 
communication by him to the outside, even to his family, not to 
mention any other legal proceeding or trial. This is not just 
violating international standards, but also Chinese law itself.
    Under this type of harsh environment for scholars, I feel 
more than ever a responsibility to speak out to speak for our 
fellow Chinese people, especially the unfortunate Chinese 
women. Partially due to my own background, of course, there is 
a social background supporting this issue.
    However, for a government boasting perfect equality such as 
``women will hold half the sky,'' and a government that is so 
successful in carrying out its policy of suppressing dissidents 
and religious believers, one has to wonder why they could not 
carry out their slogans and policies for equity for women.
    Women lack not just social and economic status, but also 
political status in China. There have been very limited, yet 
well-revealed stories in the press, about how women are treated 
in China. They were the victims of ignorance in the past.
    With the economic development in China, they are further 
and further dragging behind the men and have become victims of 
cheap labor and exploitation, not just economically and 
socially, but also sexually. The highest suicide rate for women 
in the world is in China. This fact alone is one of the best 
pieces of evidence.
    There is widespread knowledge of the present surge of 
prostitution, women trafficking, female fetus abortion, and 
abortion and sterilization of women. Sexual harassment is 
experienced by 84 percent of women. However, let me summarize 
the areas of my great concern for Chinese women regarding their 
rights.
    One is the growth of China's economy is built on the abuse 
of human rights, especially for women, via the lack of 
unemployment opportunity for women and cheap labor exploitation 
of young girls engaged in ``little-sister labor,'' and a 
diminution of the state-owned enterprises, as well as those 
people who do not respect women.
    [The prepared statement of Ms. Huang appears in the 
appendix.]
    Mr. Foarde. We are going to have to leave it there, Huang 
Ciping, but we will come back in the question and answer 
session.
    I think what we are going to do, because we are a little 
pressed for space, is ask our four original panelists to come 
up, and we will get some chairs, and just have you come up 
right next to the table. If you spoke on the first panel, we 
would like you up here, please.
    Then we will address some questions to all of the panel 
members. Of course, this is an excellent opportunity to make 
some additional points, if you have them.
    I get to exercise the privilege of the chair, but then I am 
going to call on my colleagues to help as well. What we 
normally do is each questioner gets 5 minutes to ask a question 
or two and hear responses, and then we will move on and we will 
do as many rounds as we either have time and interest in, or 
until we reach 3:30, whichever comes first.
    So let me begin by asking Lhundup Dorjee, your assessment 
of how things are going in Tibet with respect to the Chinese 
Government's relationship, or lack of relationship, with the 
Dalai Lama and the Tibetans in exile was very downbeat. Is 
there any reason at all for hope from the visit of the Dalai 
Lama's special representatives to China and to Tibet last year?
    Mr. Dorjee. There is ground for hope with the mere fact 
that a visit occurred in the first place. But, in my own 
opinion, even while the visit was taking place, accompanying 
events and statements that Chinese Government officials made, 
government officials and diplomats overseas, did not seem to 
reflect any genuine change of heart in their assessment of the 
situation in Tibet and how they intend to solve that problem.
    Also, the skepticism shared by many in my own community is 
that the visit was arranged to facilitate a face-saving public 
relations effort for Jiang Zemin's impending visit to Texas in 
October 2002.
    Yet, in the case of Tibet, any small development is a good 
development. We keep hearing of a visit of a second delegation, 
although I have no confirmed information on that. But that 
would be more grounds for optimism that something real may be 
happening. So far, we have not seen much effort to back it up.
    Mr. Foarde. Thank you very much. Very, very useful.
    Greg Walton, I am really interested in the Six/Four System 
that you were talking about. Can you give us a little bit more 
detail? I have got about 3 minutes for you to do it in.
    I am particularly interested in why you think this is going 
to be so revolutionary in kind of blowing apart the bottlenecks 
in the information pipe on the Internet, and whether the 
Chinese Government, which has a great number of very adept code 
writers, will have any success in overcoming it or finding a 
solution to it that will escalate some other new innovation 
elsewhere, et cetera.
    Mr. Walton. Right. I think that Six/Four is one of a number 
of systems that could, in the future, be of use in 
circumventing government censorship. I pick it out in 
particular, or rather that class of software known as peer-to-
peer software. I pick it out in particular as being useful in 
this regard.
    Mainly, if I could use the metaphor of a wheel, in fact, at 
the moment under the current way in which the Internet works, 
we have a client-server system. So there is the opportunity for 
centralized control, in this case, the eight international 
gateways in and out of China.
    With the peer-to-peer system, we distribute that 
controller, or rather, we circumvent it by routing the data 
around the outside of the network, around the edges of the 
network, as it were.
    More importantly, perhaps, than the censorship issues--and 
in fact this Commission has addressed, as you mentioned, in the 
past, the censorship issues on one or two occasions--something 
which concerns me more is the surveillance aspect of this 
situation.
    I am very concerned that, in the past, the U.S. Government 
might have funded programs which have helped the Chinese 
security efforts and to identify people who are circumventing 
the state-sponsored censorship.
    So, I am particularly concerned about not just 
circumventing the fire wall, but doing so anonymously and 
securely. By doing so securely, I mean with military-grade 
encryption technology. That is the case with Six/Four.
    I should just mention, actually, that the Department of 
Commerce, 2 weeks ago, licensed the export of this software 
because it contains munitions-grade encryption.
    I intend to present to the Commission the full-page 
summary, really, which answers in considerable detail these 
questions, and keep you updated on the development of that 
software.
    Mr. Foarde. Great. Some of our Commission members--
Senators, Congressmen, and Administration officials--are, in 
fact, pretty technically savvy. One or two of our staff is as 
well, so we are quite interested in these details.
    Mr. Walton. Sure. Yes.
    Mr. Foarde. Great.
    I would like to cede the floor to our friend and colleague, 
Steve Marshall. Steve is a senior advisor on the Commission 
staff, and I am sure he has a question or two. So, please, 
Steve, go ahead.
    Mr. Marshall. I think everything everybody said is very 
interesting and important. But because today is the special 
anniversary, or a very un-special anniversary, of the 10th of 
March uprising in Lhasa, I would like to ask another question 
of Tenzin and Lhundup. I would like both of you to comment on 
this.
    Lhundup, you said something very interesting, that you 
thought that if the situation was not solved in some respect, 
some improvement I would take it, between the Dalai Lama and 
the Chinese within his lifetime, that it would be a very 
serious situation, a very serious consequence. My question is, 
what do you mean by ``very serious consequences?''
    Mr. Dorjee. I think there is not enough appreciation of the 
leadership that the Dalai Lama has been providing to the 
Tibetan 
people, in the sense that he has advocated a very non-violent 
approach.
    So far, the Tibetan movement, even after almost 50 years of 
Chinese invasion and occupation, has not turned violent. While 
there are a few people who do disagree with him, his leadership 
has been effective in keeping the movement on track on a non-
violent path. I think there needs to be a real appreciation of 
his contribution on that side.
    If China does not realize the value of what the Dalai Lama 
is proposing and the wisdom of the path that he is proposing, 
once he is out of the picture, if the situation is not resolved 
within his lifetime, the Tibetan people will suffer also, 
definitely.
    But that does not mean that China will win. China does not 
win when Tibetan people suffer more. If the Dalai Lama is out 
of the picture, my fear is that the Tibetan people will not 
have a centralized leadership and will not have a guiding 
principle like the path of non-violence to follow, and the 
movement will get fragmented, and that would cause instability 
in the region.
    Mr. Marshall. Instability was the word I was looking for. 
Tenzin, we have got a minute or so left. Could you add to that? 
Do you feel that the Tibetans would have the capacity or the 
will to actually create instability if some sort of improvement 
is not made through the Dalai Lama process?
    Mr. Tenzin. Yes. I think the younger generation, 
especially, is basically tired of not having any results from 
His Holiness' approach to the Chinese Government. There is 
growing, I would say, tension among youths who are losing 
patience, basically.
    I think, as Lhundup said, the Dalai Lama is asking to 
benefit not only the Tibetans, but also to benefit the Chinese 
people with his approach. So I think it would be wise to accept 
this middle way approach by the Dalai Lama before he passes 
away. That is what I want to say.
    Mr. Foarde. I next recognize our friend and colleague, Lary 
Brown, who is a specialist in labor affairs for us. I am sure 
he has a question or two.
    Lary, please.
    Mr. Brown. Mr. Crook, in your presentation you mentioned 
the growing disparity in income between urban and rural areas 
in China. I was wondering if you could tell us a little bit 
what needs to happen in rural areas before they can begin to 
catch up with the income levels in the urban areas. I am sorry, 
that is a big question and you do not have very long to answer 
it.
    Mr. Crook. I think that what has to happen is there has to 
be a resource transfer. I think that the central government 
needs to start funding, for example, primary and junior/middle 
school education. That is something that should have been going 
on for a long time.
    In urban areas, the government pretty much does that. In 
rural areas, farmers pay. But that is one thing. I think they 
need to reduce the burdens on the peasants. If you look at the 
tax burden, it is about five times higher in rural areas than 
it is in urban areas.
    I would say that the modern urban China has been built on 
the backs of Chinese peasants. There has been a resource 
transfer. That is not unusual, because that happens in almost 
every developed country. That is what has happened.
    But I think there comes a stage when the urban areas have 
to slow down the growth. We think about per capita or GDP 
growth rates. That is not the main question now for China. The 
main question, is what kind of growth, unfair growth or a more 
fair growth?
    So, I think that it is transfers, I think they need to 
reduce the burdens in rural areas. They need to allow rural 
people, not just in Tibet, but in Anhui and so on, to be able 
to move. For many years, labor could not move. They have to 
allow the rural people to start to move.
    Mr. Brown. Ms. Chen Yali, I found your discussion of the 
controls on Chinese journalists to be very interesting and very 
nuanced. Could you maybe elaborate a little bit about what 
needs to happen and what changes need to take place in order 
for 
Chinese journalists to have an internationally acceptable level 
of freedom to do their jobs?
    Ms. Chen. I did not mention in my presentation about self-
censorship, which is a major form of the censorship system in 
the Chinese media. My central point is, I think to break the 
censorship system in the Chinese media, to win more freedom for 
Chinese journalists, the first thing is to help empower, help 
advocate and train Chinese journalists, and learning to work 
within the system.
    From my own experience, I clearly know, in the Chinese 
media, there are two groups of journalists. One, is the ``in 
the system'' journalist, one is a journalist ``living on the 
edge'' who is a troublemaker who might have some explosive 
things to say but anyway stays in the media area. I think they 
need to get more opportunities to go to the United States, to 
get some scholarships for training opportunities. These people 
are the hope for breaking the 
censorship. Thanks.
    Mr. Brown. One more quick question for Mr. Tenzin, and Mr. 
Lhundup may want to chime in.
    One thing that you mentioned, is as the economic 
development flows into Tibet and the new economy develops, it 
is mostly the Chinese that seem to be benefiting. One factor 
you mentioned, going back to Tibetans, was the fact that they 
do not speak 
Chinese.
    So my question to you is, if the Tibetans, in fact, were 
bilingual, would the discrimination stop? Or is the 
discrimination that they face in the newly developing economy 
based on something more than just language?
    Mr. Tenzin. I do not think it is just the language itself. 
Tibetans are allowed to learn the Tibetan language. I mean, 
they teach it on a basic level. But once you get in school and 
so on, I think they do not teach Tibetan.
    But even if they do, I think it would definitely improve 
and people would be willing to train Tibetans. Because, right 
now, there is no basic incentive to train Tibetans. So, I think 
in that sense it would help the Tibetans.
    But I think there is more than just the languages, just 
basic treatment, looking down on the Tibetans, I think, are a 
factor. It would help if the Chinese would allow Tibetans to 
study Tibetan and give them jobs based on their knowledge and 
their skills. That is all.
    Mr. Brown. Can I interrupt? My actual question is, if their 
Chinese language skills were better, would they be in a better 
position to compete or would they still be discriminated 
against based on the fact that they are Tibetan?
    Mr. Tenzin. Oh. All right.
    Mr. Dorjee. Actually, that is happening right now. In fact, 
the Tibetan language is not the primary language in operation 
in Tibet. Tibetan is taught at the primary level, I think. As 
you move along the systems. Chinese is required to get a job, 
or even get in the government, or even go for higher studies. 
So what you are thinking is happening right now, but that does 
not change the basic underlying problem, which is, really, 
China's intent of economic development effort in Tibet. As my 
Uighur friend mentioned, China's plan is to really consolidate 
their colonial rule in Tibet, as well as in Xinjiang. Because 
the intent is to consolidate rule, the projects focus on doing 
things that are not directly beneficial to the Tibetans, or to 
the other minorities, I guess. So, the underlying problems have 
to be addressed, I think.
    Mr. Foarde. Let me pick up the thread here and ask a 
question or two of Mr. Roy Zhou, please. You spoke quite 
eloquently about the interests of Chinese students and scholars 
coming to the United States and about the recent problems that 
Chinese scholars have faced trying to visit the United States 
for purposes of scholarships, and also those who are already 
here, because of the heightened attention and heightened 
interest in foreign students in the United States after 9/11, 
and just because of security concerns, generally.
    I wonder if you could tell us, for the record, what you 
understand about why it is taking so long for Chinese students 
and scholars to get visas to come to the United States at this 
present moment.
    Mr. Zhou. Your question is a really good one. In my 
opinion, China has the largest population in the world, so it 
has the largest number of students and the learning skills of 
the students are excellent. As I said, they were accepted by 
the U.S. institutions and are competitive through the whole 
process and are admitted into U.S. institutions. So there are 
many students who go to the U.S. Embassy or the Consulate in 
China and apply for a visa. As far as I know, your Immigration 
office in the U.S. Embassy in Beijing--and there were lots of 
Chinese students applying for the visa because of their 
significant opportunities are really good, and so----
    Mr. Foarde. So, in part, it is because of just the numbers. 
Is that what you are saying? The large numbers of people that 
are 
applying?
    Mr. Zhou. Yes. I think that might be the most important 
one.
    Mr. Foarde. Oh. All right. And are there other reasons for 
the extra-long period of time that it is taking? Because my 
understanding was, Mr. Zhou, and correct me if I am wrong, that 
traditionally you would get a response to a student visa 
application in China relatively quickly, within 2 or 3 days. 
Now, according to what you told me, sometimes it is taking 3 
months, 4 months, 5 months, 6 months. Why the long time, now?
    Mr. Zhou. Can I refer this question to a student here from 
Columbia University called Michael Ren?
    Mr. Foarde. Yes, please. Could you identify yourself for 
the record, please?
    Mr. Ren. Yes. Sure. Mike, from Columbia, associated with 
the Association of Chinese Students and Scholars of the Greater 
New York Area.
    There are instances of Chinese students and scholars not 
being able to return to the United States, at Columbia, as 
well. I think the number one reason is the sheer number.
    Mr. Foarde. Can I stop you, just to understand you a little 
better? We are talking about scholars that have already been 
here in the program and that have returned to China for a 
family visit or for a vacation or something, not necessarily 
all first-time scholars.
    Mr. Ren. It is both.
    Mr. Foarde. It is both.
    Mr. Ren. Right. Right. For returning students, for example, 
students went back to China this winter, but they were not 
allowed to come back because they had to go through the 
security check that the State Department does. The security 
check.
    Mr. Foarde. The security advisory opinion.
    Mr. Ren. Right. Right. That the State Department 
established after 9/11 in response to the heightened security 
situation. As Mr. Zhou eloquently mentioned in his remarks, we 
students are here primarily as students and do not really pose 
a threat to national security.
    Our International Students Office already has a measure 
where they certify each student for their enrollment in school 
prior to departure from the United States. That should be 
adequate in terms of establishing that the student is enrolled 
and is in good economic standing.
    With the added measure of 9/11, that just seems not to be 
enough for the visa officers. The measure that Mr. Zhou 
proposed was that, if it would be possible to establish a 
mechanism where these students can be certified by security 
before they would come to the United States.
    Mr. Foarde. Mr. Zhou, I think you suggested that there was 
an organization that could do that. Did you say BCIS?
    Mr. Zhou. That is the Bureau of Citizenship and Immigration 
Services at the INS.
    Mr. Foarde. At the INS. All right. We need to get you on 
mike to say that. BCIS stands for?
    Mr. Zhou. It is the Bureau of Citizenship and Immigration 
Services, I think.
    Mr. Foarde. All right. Is that the name of this department 
as part of the Immigration Service as it has in the new 
Homeland 
Security Bill?
    Mr. Zhou. Yes.
    Mr. Foarde. It is. All right. All right. That is useful to 
know.
    Steve Marshall.
    Mr. Marshall. I would like to address a question to Mr. 
Turkel here. I think it is widely understood that there is a 
certain amount of Uighur nationalism that is expressed through 
means that any government would probably disagree with, such as 
with arms, or with a bomb, or something.
    But I think there is also an impression that China treats 
the Uighur culture itself, the religion, the Uighur identity, 
as a threat, even when there is no violence involved. Do you 
believe that is true? And if you do believe that is true, why?
    Mr. Turkel. I believe that is very true, and I appreciate 
the question. It is a very important question to address, so I 
would like to go into a little bit of details on that.
    The Chinese have been trying to assimilate the Uighurs into 
the Chinese culture for the last 54 years, and have realized 
that it has not gone very well because of the different culture 
that the Uighur people have been proudly living with for 
centuries. So, the Chinese feel that the Uighur culture is 
standing in their way to assimilate the Uighurs to make them 
think, eat, and act like the Chinese, therefore they come up 
with this new war, that is, a cultural genocide. They have been 
locking up Uighur historians, banned the Uighur language, 
banned the Uighur cultural gathering. In other words, Chinese 
authorities outlawed anything that is posing a threat to the 
Chinese assimilation policies.
    One of the ways that the Chinese are successfully doing 
this is by making Uighurs' lives difficult, by limiting 
economic and employment opportunities, so that the Uighurs 
think nothing but to make a living. The Chinese have carried 
out policies to assist the migrant Chinese to become an 
economically advantaged class of citizens, and this led the 
Uighurs to admire the Chinese lifestyle because of their better 
living conditions and earnings. This has been making the 
Uighurs feel inferior and causing enormous frustration for 
becoming economically and socially disadvantaged people in 
their own homeland.
    Mr. Marshall. And this happens irrespective of whether or 
not there is a threat of violence. This happens even in the 
case of peaceful behavior?
    Mr. Turkel. Yes. In the last several years, many peaceful 
demands for human rights and self determination have been 
brutally suppressed. And those isolated incidents and acts of 
violence need to be correctly addressed. Because those isolated 
incidents do not represent the will of over 15 million Uighurs. 
The majority of the Uighurs does not agree with the means of 
violence to achieve their objectives. And the Uighurs are peace 
loving people and they disagree with violent acts against any 
people. But one thing needs to be understood. The frustration 
and humiliation in the Uighurs' daily lives, and the 
international community's lack of awareness for the Uighur 
sufferings may have been causing those incidents. And once 
again, any of those isolated acts of violence does not 
represent voices of 15 million Uighurs.
    Mr. Marshall. Thank you very much.
    A technical question for Mr. Walton. Today, the People's 
Daily of China announced a new VeriSign network, a VeriSign 
Corporation product that would allow, apparently, more secure 
surfing. I am wondering, whose security benefits more from the 
VeriSign software, the user or the state? Did you see that 
article?
    Mr. Walton. I have not seen the article. I do not know the 
details.
    Mr. Marshall. But, given the nature of VeriSign products, 
what do you think?
    Mr. Walton. Well, I think that VeriSign is generally 
engaged in e-commerce certification. I assume that it is 
somehow connected with that. I think that is a good thing.
    We cannot have e-commerce without trust, and we cannot have 
e-commerce within China, or between China and other countries, 
without a level of trust. Commercial-grade encryption is 
necessary--it is illegal in China, in fact--but I think that 
the Chinese Government realized that that wasn't going to work. 
So, as far as I understand, Chinese legislation still holds all 
forms of encryption illegal.
    But, gradually, corporations are rolling it out piece by 
piece, presumably. The first one has now got their form of 
encryption, or whatever, legitimized by the Chinese Government. 
The bottom line is, in this particular case, it is good for 
everybody, I think.
    Mr. Foarde. Lary Brown.
    Mr. Brown. I have no more questions.
    Mr. Foarde. No more questions. All right.
    We have a few minutes left. Let me ask a few more 
questions.
    Fred Crook, I think it would be really useful, for the 
record, if you would not mind, to give us all a sense of, we 
see a variety of figures on the number or percentage of Chinese 
population that is rural, the amount of employment in the 
agricultural sector in rural China, et cetera. I wonder if you 
can give us your best figures on the scope of China's rural 
population in 2003.
    Mr. Crook. I do not know if I can give really definitive 
numbers. But I guess I would say 65 to 70 percent of the 
Chinese populace can be considered rural. It is changing.
    A lot of farm people are leaving the land and working in 
small villages and townships. So it is not just that people are 
leaving the villages to go to Shanghai. Sometimes they leave 
the village to go work in the local township, the county town, 
or the provincial town, and so on.
    I worked with a researcher at the Ministry of Agriculture. 
I think her estimate was about 130 million people, young men 
and young women, leave the villages and work outside their 
townships.
    A large part of it is linked to education. If a young 
person living in a rural area has a junior/middle school 
education, or senior high school education, the probability is 
extremely high that he is not going to be a farmer. He is going 
to move off of the farm.
    So that kind of links back to the state as an advantage, 
and it should take up the education responsibility. As it 
exists now, what happens is, if a village invests in a child, 
in a young student, and the student leaves, they have lost 
their investment because the 
investment is gone.
    If the state does it and the student moves to Wuhan or 
Shanghai, then he is still inside the Chinese realm, or to 
Tibet, or Xinjiang, wherever they go. They are still within 
China, so there is a lot to be said for that.
    I think that in the next 20 years, we are going to see a 
major population change take place in China. A number of our 
colleagues here at the table were talking about whether there 
needs to be a Uighur in the Chinese system, whether there needs 
to be Tibetan, and so on. But it is also, what does it mean to 
be a rural person? Part of what goes on is just not simply, you 
are Uighurs, but you are from west China, and poor, and so on.
    So I think that in the urban areas, if the urban people 
looked down upon Tibetans, Uighurs, and farm people, then you 
are going to have a lot of tension in Chinese society. I think 
it is a major, major problem that China has to face.
    They have created this monster, this two-sector country 
that is really two countries in China. There is poor, rural 
China, and then there is rich, urban China. Somehow, in the 
next 20 years, Chinese leaders have got to address that 
problem. How they do that is going to affect stability and what 
happens with U.S.-China 
relations.
    Mr. Foarde. This is a really important point. A lot of 
times we see people in our offices who say, ``Well, I have just 
been to China.'' ``Well, where have you been?'' ``I have been 
to Beijing, Shanghai, and Hong Kong.'' I said, ``the real China 
is really elsewhere.''
    What we are trying to do on our own staff trips, to the 
maximum extent possible, you have to go to one of the Big 
Three, but try to go to other places, because that, to me, is 
where the real China is. So, it is really useful.
    Mr. Nury Turkel, I would just give you an opportunity, if 
you wanted to, for a minute to talk more about the recent 
earthquake. As you do that, I just wanted to say that both our 
chairman and co-chairman, Congressman Jim Leach of Iowa and 
Senator Chuck Hagel, are very concerned about the earthquake 
and the death toll, because they raised it with me when we met, 
and we have had a long discussion about it. So, if you had a 
couple more thoughts on that.
    I am particularly interested in the difference in the 
casualty totals between the official Chinese ones, and then 
some that we are hearing from our friends in the Uighur 
community in exile, and anything else you wanted to say about 
that for a couple of minutes.
    Mr. Turkel. This is a really important question. Radio Free 
Asia [RFA] recently opened up a hotline that made it available 
for the Uighurs to channel their voices out and express their 
concerns, and provide non-fictional information to the 
journalists in the United States.
    I think they can provide you firsthand information. Because 
that information was provided by the victims, the relatives of 
the 
victims, and/or people who lived in that area that has ties to 
the disaster area.
    According to the RFA reports, the victims are not even 
allowed to accept humanitarian aid. What we are talking about 
isn't foreign aid, but domestic. Another RFA report indicates 
that monetary and other humanitarian aid from the local Uighur 
business communities was rejected without any explanation.
    We have heard from the media that some of the countries, 
such as Greece, Turkey, and the United States offered 
humanitarian assistance, especially the Turks, but their offers 
were rejected. Since Turkey is one of the most experienced with 
earthquakes, they have very well-equipped and experienced 
rescue forces that they can send to Turkestan to help the 
earthquake victims, but the Chinese Government bluntly rejected 
their offer. We have heard that similar types of help offered 
by other countries was also rejected.
    The Uighurs have tried to collect some donations to send to 
the victims in the region and want to make sure that this money 
will be given to the victims directly, not to the pockets of 
the Chinese officials or the other people who can use it for 
some other purposes.
    There are instances in the past that foreign aid or 
monetary donations went straight to the government to build or 
upgrade their offices and even buy ambulances in major 
hospitals in the capital city, Urumqi, but not in the 
earthquake area. This information was provided to us by 
reliable sources.
    Here, we would like to ask the U.S. Government to send an 
independent observer to investigate the actual death toll and 
monitor the rescue effort. I personally believe that the actual 
death toll exceeds what has been reported by the Chinese 
Government-owned media outlets. That is the only media outlet 
that was allowed to go to the disaster area to make reports. 
So, I doubt that 266 is an actual death toll.
    We would like to ask the U.S. Government to work with the 
Chinese authorities to provide all necessary humanitarian 
assistance to the victims. We believe that it can be done and 
is not too much to ask because the victims are really 
suffering. It's hard to imagine in a civilized world that the 
victims of natural disaster are treated heartlessly. Instead of 
providing humanitarian aid, the Chinese Government is 
collecting blankets, daily supplies, and food from the local 
communities while rejecting the foreign aid by telling the 
world that China is capable of taking care of the earthquake 
victims. The Chinese Government can use the money from the 
international community to rebuild schools, homes, and 
hospitals. Many victims and kids who lost their parents are 
still staying outside in cold winter weather. It's been 
reported that heavy clothes and blankets didn't provide much 
shelter for the victims to stay warm in recent heavy snow and 
freezing weather.
    Here, we are not asking the whole world to come together to 
liberate Uighurs but simply asking for humanitarian assistance 
which will help them to get back on their feet. What they are 
facing is a real danger and they need the world community to 
tell the Chinese to pay attention to the sufferings of the 
earthquake 
victims.
    Mr. Foarde. Thank you very much.
    Mr. Turkel. Thank you.
    Mr. Foarde. Very useful.
    I will let my colleague and friend, Steve Marshall, ask the 
last set of questions for this afternoon.
    Please, go ahead.
    Mr. Marshall. Thank you. We are going to come back to March 
10 again. I will point out that the Chinese Government has just 

released today, and posted on their Web site, a new white paper 
focusing on the Tibetan environment and ecology.
    When they say ``Tibet,'' they mean just the Tibet 
Autonomous Region. One entire chapter of this white paper is 
dedicated to the study of the railroad that may be built 
between Golmud and Lhasa. Both of the Tibetans have mentioned 
the population issue. Mr. Turkel, I think, and the Uighur 
people are very familiar with the population issue.
    If the railroad is built and the population influx 
continues and accelerates, what can the Tibetans do to cope 
with the population pressure and still maintain their identity? 
Let's face reality head-on. If there is no option, and you 
cannot just turn the railroad off, but you want to preserve 
your self-identity, how do you do it? Somebody?
    Mr. Turkel. May I answer that question?
    Mr. Marshall. Sure.
    Mr. Turkel. There has been an influx of Chinese immigrants 
flooding into the region, especially since the southern 
railroad is built in Xinjiang. There is a city called Kashgar 
in the southern part of East Turkestan. Kashgar is not only 
considered as an 
important historic city to the Uighurs but also is regarded as 
the cradle of Turkic civilization for the Turkic people in the 
entire Euro-Asian continent.
    After the building of the railroad, Kashgar is almost 
becoming another Chinese city. In order to facilitate the 
settlement of the migrant Han Chinese, the Chinese Government 
is destroying the ancient streets and old residential districts 
to connect the new train station to the city center. Ancient 
streets, historic buildings and sites have been the major 
driving force for the local economy, and demolition of such 
tourist attractions is making it impossible for the local 
Uighurs to make a living. Obviously, tourists won't go to 
Kashgar to see high-rise apartment buildings and wider streets, 
but rather they are much more interested in learning the Uighur 
culture and history. As a signatory country of UNESCO, China 
should protect the Uighur cultural heritage but not destroy it.
    Having said that, the Uighurs are not opposed to the 
construction of the modern transportation to catch up with the 
rest of the world if such projects are not based on the 
destruction of cultural and ethnic heritage. So called 
``western development'' policies aren't designed to help the 
Uighurs and Tibetans to have a better life but it was designed 
to facilitate migrants to settle in the lands of the Uighurs 
and Tibetans.
    It is unfortunate but I think my Tibetan friends might face 
the same consequences as a result of this railroad project. 
Now, the Kashgar residents are frustrated because they are 
losing their homes. Those homes might be a few hundred years 
old. The ancient city is disappearing, local economy is getting 
hurt badly and thousands of Han Chinese immigrants are arriving 
daily and they are the real beneficiaries of this so called 
``western development'' program at the heavy price that the 
Uighurs are paying.
    Mr. Marshall. We have only got a minute or so left, so 
could I cut in and see if Lhundup wants to add something? Do 
you have something to say?
    Mr. Dorjee. Thank you for your question. This is a very 
difficult question really to even try to think through. But, 
trying to think through it, if I go back to the agenda of 
today's forum, where I see human rights and the development of 
rule of law in China, and protection of minorities, and 
development of democratic structures and institutions.
    I mean, we can fight for those kinds of rights and 
institutions and probably those can provide some sort of 
protection for our cultural identity, though I remain very 
optimistic. I have not seen Tibet. I was born in India, in 
exile.
    My parents were from Eastern Tibet in the Amdo region, now 
called Qinghai. In the areas bordering China, traditional 
ethnic Tibetan areas bordering China, the influx of Chinese 
settlers, Han as well as Hui, the changes that have come about 
seem to be irreversible now. The concern that this can happen 
in central Tibet from the railroad construction could be really 
difficult to imagine for us. Thank you.
    Mr. Foarde. We have run out of time, unfortunately. Very 
rich and interesting conversation with each one of you.
    On behalf of Chairman Jim Leach and Co-Chairman Chuck 
Hagel, and the other Members of the Congressional-Executive 
Commission on China, and every one on the staff, I would like 
to thank each of the eight speakers today who helped us by 
giving us your views and your very interesting information on 
all these questions.
    Our next issues roundtable will be held on Monday, March 
24, in room 2255 of this building, the Rayburn House Office 
Building, at 2:30 p.m. We are going to focus on non-
governmental organizations in China and we will have a 
distinguished group of panelists to help us.
    The time has come for us to give up the room to another 
group at 4 o'clock. We thank you once more on behalf of the 
CECC, and thanks to everyone who came. We will see you again at 
the next open forum. I hope we will have another of this type 
of forum later in the year, and I hope it is as successful as 
this one.
    Thank you all, and good afternoon.
    [Whereupon, at 3:30 p.m. the open forum was concluded.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                     Prepared Statement of Roy Zhou

                             march 10, 2003
    Good afternoon, I am very delighted to come here and give this 
presentation to you on behalf of Chinese Students and Scholars studying 
in New York Area. We are the only regional and the largest group of its 
kind here in the United States. Today, I want to talk about this 
special group of people who are of increasing importance to both 
America and China--the Chinese students and scholars who are studying 
and living here.
    I'll start with a story, a story that happened on a fierce winter 
of 1854. After 98 days on a tea ship called ``Huntress'' from 
Guangzhou, Mr. Yung Wing, the first Chinese national who ever received 
admission from a prestigious U.S. institution, set his rugged cotton 
shoes on the hustle-bustle port of New York City. The prosperous street 
views shocked Mr. Wing, who realized that a legendary land existed 
outside of his motherland ``Central Kingdom.'' Five years later, on a 
similar bone-freezing winter, Yung returned to China as a Yale 
graduate. Among his meager luggage, he bundled not only diploma but 
also a dream--a dream that later influenced several generations of 
China's youth. ``During my last year at Yale College, I had almost 
decided what I wanted to do. I believe the next generation of China 
youth should have the same opportunity to receive the education that I 
have received. Through the Western education that its citizens would 
receive, China may turn into regeneration, and become more civilized 
and stronger. It is the goal of my life to make this dream true,'' said 
Mr. Wing.
    The road to Yung's dream proved to be rough. During the most part 
of the 20th century, China and its youth suffered consecutive wars: 
including the two World Wars, the numerous military conflicts waged by 
colonial powers like Britain and Japan, and the Civil War. China 
plunged into unprecedented poverty, ignorance, and chaos. China's youth 
still dreamed about traveling and studying overseas but very few of 
them made their way into institutions of higher education in the West. 
Especially during the cold war, the hostility between different 
ideologies caused tremendous difficulties for young intellectuals to 
fulfill their dream of studying in America. It was not until late 
1970s, after Richard Nixon's visit to Beijing, that American 
universities started admitting an increasing number of Chinese students 
and scholars.
    Since the normalization of U.S.-China relations in the 1970s, 
hundreds and thousands of excellent Chinese students and scholars have 
been overseas to places like the United States to learn the Western 
technology, culture, political and economic systems. They have also 
spread knowledge of Chinese culture to the United States. After their 
study, many students were either hired locally, devoting their effort 
in academic and business areas, or returned home with the knowledge. 
More and more students are returning to China, like a bridge connecting 
the two countries. Among the ones that stayed in the United States, 
many of them achieved quite remarkable success in the business world. 
For example, there is one company called ``UT Starcom'' based in New 
Jersey, which was started by a student called Wu Ying in 1992. After 10 
years, UT Starcom is an ISO 9001 certified company providing 2,500 job 
opportunities to American workers. We can find similar examples in 
which Chinese businessmen devoted to the society all over the nation. 
There are many other success stories, like Hong Chen, who founded an IT 
Firm called GRIC, and Zhu Min, who founded WebEx which provides Online 
Meetings Service. Both are leading in the their respective industries.
    The United States and China are two great countries of great human 
talents and intellectual heritages. The reopened opportunities for 
exchanging students have seen many young Chinese receiving their 
degrees from the best universities in the United States and many of 
them going on to contribute in both China and America in various 
fields. There is an interesting pattern in the history of Chinese 
Students and Scholars coming to America. Early on, thousands of them 
decided to stay and work for big corporations and academic institutions 
because they felt that China was too backward in their research area or 
too rigid in governing. This trend once wreaked havoc on some Chinese 
government officials who worried about ``brain drain'' due to the high 
rate of non-returning students and scholars. But now this worry turned 
out to be less than temporary. Since China's accession into the WTO, 
Chinese students and scholars are more than willing to return for the 
unprecedented opportunities for growth at home with the knowledge they 
have learned in the United States. Just take a look at recent 
recruiting, business opportunities and investment conferences held by 
different Chinese municipalities, the long line waiting outside of the 
meeting place is stronger evidence than any words or arguments.
    Even the Brookings Institute's China expert David Shambaugh 
exclaimed that the next 10 or 20 years, America will see the most 
tremendous impact that it has on China due to the large number of 
students and scholars returning to their motherland. President of U.S.-
China Business Council Dr. Robert Kapp also predicted that the fast 
development of China and its market economy has drastically reduced its 
distance from the most developed countries, therefore its business, 
cultural and intellectual talents are facing a new round of relocation 
and integration. All these changes point to a brighter future for both 
China and America. It's a mutual benefit to both governments.
    Having said that, I want to talk about three issues affecting 
Chinese Students and Scholars.
    First, most Chinese students came to the United States for the 
academic excellence and the opportunity to pursue their studies at 
American universities. 
However, there are certain people who have been driven by some 
interests and advocated the so-called ``China Threat'' concept, and 
claimed that many Chinese students are spies. Recently, New York Times 
reports that FBI is recruiting Chinese Students as spies for the U.S. 
Government. This has brought an in-depth discussion in Chinese 
Community. Most foreign students follow the rules and regulations well 
and are not interested in getting involved in the politics. The Chinese 
Community was silent in the past, but this does not mean that we have 
no position. We want to stay away from politics and from spy issues. We 
came to the United States for academic and personal development and for 
the improvement of U.S.-China relationship, not for spying.
    Second, Chinese students receive acceptance into U.S. institutions 
through competitive exams and the rest of the admission process on an 
equal or less-advantaged basis with American students. Unfortunately, 
many dreams broken because of unreasonably high rate of visa declining, 
including many of those who were granted full scholarship at 
prestigious U.S. Institutions. A number of Chinese students who 
returned to China during the winter break were either declined re-entry 
visas or had to wait for almost 6-month security check in China. For 
example, there are at least 4 students from Stony Brook University who 
were not able to return to school for this spring semester and they are 
still waiting in China. They have to postpone their studies when new 
semester starts. For these students, the delay of visas imposed big 
difficulties to their study and personal life. For example, Heng Zhu, a 
post-doctor student at Yale University in its Department of MCDB 
(Molecular, Cellular and Developmental Biology) was declined the visa. 
Wall Street Journal reported his story, saying ``his absence of work 
due to visa issue has derailed work under a $1.5 million National 
Institutes of Health grant to understand how thousands of genes work, a 
process that could ultimately aid drug discovery.'' Clearly, the loss 
of such students and scholars undermines U.S. national interest.
    Third, we respect U.S. policy on Homeland Security and we firmly 
support the war on terror. However, treating foreign nationals nicely 
will help the U.S. global image. We are wondering, if it is possible 
for BCIS to consider providing a new 
service to accept Security Check Applications prior to departure from 
the United States for foreign aliens already in the United States. 
Accredited foreign aliens will receive expedited processing when they 
re-apply for visa at their home country. If possible, this would be 
beneficial to foreigners, especially enrolled students, while not 
compromising homeland security measures.
    At last, we wish the two great nations prosperity and friendship. 
We also hope to be able to contribute to the increasing U.S.-China 
Communications on politics, economics, trade, culture, educations, and 
help improve the relations between the two countries.
    Thank you for this opportunity to share my thoughts with you. I 
would be glad to try and respond to any questions you may have.
                                appendix
U.S. Security Stymies Scientists By Bernard Wysocki Jr. 01/21/2003, The 
    Asian Wall Street Journal, Page A1
FBI Recruiting Chinese Students in US--NYT 02/07/2003 Dow Jones 
    International News
Homeland security? Don't forget homeland sensitivity. By Tom Plate. 02/
    17/2003 Straits Times
China Reforms Bring Back Executives Schooled in U.S. By Jonathan 
    Kaufman 03/06/03, Staff Reporter of the Wall Street Journal
                                 ______
                                 

                Prepared Statement of Frederick W. Crook

                             march 10, 2003

                 Living Conditions in China's Villages

    For the past 43 years I have focused my interests on China. I have 
lived in China (mainland, Taiwan, Hong Kong) for a total of 10 years. I 
served as an Agricultural Attache in Hong Kong, and worked on a TDY 
basis in the US Embassy in Beijing, and in the US Consulate Generals in 
Shenyang and Chengdu. I retired from USDA with 30 years of service and 
in 2000 organized The China Group that provides information to clients 
about China's rural economy and agricultural trade. In the past 3 years 
I made 14 separate trips to visit China's rural areas.
    Since most US visitors to China typically travel to Beijing, Man, 
and Shanghai but given my background and experience I thought I could 
be most useful to the Commission by providing some views about rural 
China--the China that most visitors seldom see.
    My presentation addresses three topics.
    1. The wide gap between urban and rural living standards.
    2. The growing tensions in China's basic level institutions Party 
appointed cadres in the Village Party Branch Democratically elected 
Village Committees.
    3. The shadow of famine in rural villages--two strikes and you are 
out.
urban wealthy (modern china) and rural poor (relatively backward china)
    My view is that one of China's most serious problems is that over 
the past 50 years China's leaders have constructed two China's: a 
modern wealthy China and a backward rural poor China. This ``house 
divided'' is a major weakness in contemporary China and to unite this 
house into a major Asian power will take enormous effort and resources 
and may require decades to accomplish.
    Many researchers in China and in the United States have focused 
effort on analyzing the effects China's entrance into WTO may have on 
China's rural economy. But when I have asked some of my colleagues in 
China to highlight major problems looming for China in this decade 
their answer typically is: ``WTO is not the primary problem. The main 
problem is the `Dual Structure.' ''
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Consumer durable goods per 100 households, urban/rural comparison
------------------------------------------------------------------------
              Commodity                  Urban 2001        Rural 2001
------------------------------------------------------------------------
Bicycles............................  165.............  121
Sewing machines.....................  51..............  NA
Washing machines....................  92..............  30
Electric fans.......................  171.............  129
Refrigerators.......................  81..............  14
Motorcycles.........................  19..............  25
Tape recorders......................  49..............  NA
Cameras.............................  40..............  3
TV sets:
    Color...........................  121.............  51
    Black and white.................  NA..............  54
Telephone sets......................  93..............  34
Computer............................  13..............  NA
Cell phone..........................  34..............  NA
Air Conditioning....................  36..............  NA
------------------------------------------------------------------------
Source: NBS, China Statistical Yearbook, 2002. Table 10-12 and Table 10-
  28.


                      Per capita consumption, 2001
                             [In kilograms]
------------------------------------------------------------------------
------------------------------------------------------------------------
Grain.........................................        80.0        238.0
Fresh vegetables..............................       116.0         98.0
Edible vegetable oil..........................         8.0          4.4
Pork..........................................        16.0         16.0
Beef..........................................         1.9          0.4
Poultry.......................................         5.0          2.0
Eggs..........................................        10.0          2.3
Aquatic products..............................        10.0          3.4
Sugar.........................................         1.7          1.3
Fruits........................................        51.0         13.0
------------------------------------------------------------------------
Source: NBS, China Statistical Yearbook, 2002. Table 10-11 and Table 10-
  27.

  <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  
  <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  
  <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  
    Many farm households in 2003 had a family member or a relative that 
starved to death during the great famine in 1958-1961. The primary 
cause for this famine was irrational government policies. My view is 
that since 1961 the Party has lost a great deal of its legitimacy in 
rural areas. Before 1961 farmers were forbidden to store grain in their 
farmstead and houses. But since 1961 farmers began to store grain as a 
major part of their family's survival strategy. The grain serves as a 
hedge against extreme price fluctuations, injury and sickness 
insurance, and insurance against crop failures.
                                 ______
                                 

                    Prepared Statement of Chen Yali

                             march 10, 2003

                             Press Freedom

    My topic today is about China's press freedom. I believe most of 
you already have an idea about the state of China's press freedom. I 
think most people sitting here will agree if I say a Chinese journalist 
does not have as much freedom as an American journalist. But I don't 
know how many of you will agree with me if I say most Chinese 
journalists have a large amount of freedom in reporting and writing.
    When news about harassment and prosecution of Chinese journalists 
comes out to the Western newspaper continuously, it might be 
counterintuitive to say that Chinese journalists have more freedom in 
reporting and writing than many westerners believe. Here I want to make 
two points because both of them are crucial components of the state of 
China's press freedom: first, the increasing diversity and freedom of 
the Chinese media; the second self-censorship. I will focus on the 
increasing diversity and freedom of Chinese media in my presentation 
but would like to talk more about censorship later on.
    The development of China's press freedom, I believe, can be 
generalized as ``two steps forward, one step back.'' The steps-forward 
area is often the area that falls out of the western world's radar 
screen: the socio-economic development. If you look back 15-20 years, 
the reporting on the economic and social problems in China is much more 
liberal and sophisticated now. I still remember I wrote the first 
article criticizing the Chinese Government's corruption problem in 1998 
immediately after Zhu Rongji took power. However, it was unthinkable in 
1993 or even 1994 to write such a story. Family planning policy is one 
of the most holy policies from 1975 to 1998. However, I was encouraged 
by my own editor to write a story about the policy debate on whether 
family planning policy should go on. I can give you more examples later 
if you want.
    The recent change is in the reporting on political policy, the area 
that is often one step forward and half-step-back area. Recently, you 
might have seen a widely published article lashing out on North Korea 
and advocating why China should join the US to pressure North Korea for 
China's own security. Another example is a report on a study by Chinese 
scholars on why there is no direct causal relation 
between educational level and the success of direct election mechanism.
    Chinese journalists are not faced with the to-be-or-not-to-be 
questions such as ``should we speak truth or not'' or ``shall I 
challenge the censorship or not? '' Most Chinese journalists, including 
me 3 years ago, are just running around the news conference or follow a 
lead that seems interesting, or talking to scholars and trying to 
contact officials. There is no evil mastermind sitting in my office, 
watching every step I take or every word that I write. For the 85-90 
percent of my work, I write about whatever I want to write. Chinese 
journalists who cover economic news probably have more freedom since I 
am working for the op-ed page.
                           push the envelope
    Many journalists are trying to push the limit of ``political 
correctness'' and are successful in doing so in many cases. Mao Yushi; 
Dong Yuyu
                 freedom created for structural reasons
    Media outlets directly under the propaganda watchdogs suffer from 
strictest censorship. Media outlets under the provincial propaganda 
authority will have more leeway to move around if the local propaganda 
authorities are more flexible. Beijing Youth Daily for example is under 
the Propaganda office of the Youth League, which is a part of the 
Beijing Municipal Government. Therefore, the Central Propaganda 
Ministry has to go through layers of bureaucracies to send warnings to 
them. Take another example: Nanfang Zhoumo (Southern Weekend) is under 
the Propaganda Branch of the Guangdong Provincial Government, which is 
kind of independent in economic policy and even domestic politics 
anyway.
                      creating freedom in writing
    Avoid direct confrontations and avoid advocating the slogans that 
immediately draw fire on you but use small details and facts to 
communicate what you mean. Avoid putting the criticism as your own 
judgment. You can write or structure your ideas in the way that is less 
inflammable and therefore unnoticed by the censorship. To read a story 
on China Daily, start from the last five paragraphs. Chinese readers 
are smart readers. They can read between lines.
  countermeasures: ``there is a policy from above, and then there is 
                    countermeasure from the bottom''
    When one newspaper is closed down or purged, the major set of 
editors and reporters will be transferred to another newspaper. Where 
there are needs, there are deeds. Nanfang Zhoumo, when purged, turned 
into 21st Century Herald. Internet and commercialization are two 
factors to help these activities.
    I want to emphasize that I am not suggesting that Chinese 
journalists are as free as the American journalists in writings and 
reporting. We are far from that. 
However, I am trying to explain that it is difficult to generalize 
whether Chinese journalists have or don't have press freedom in a 
black-and-white manner. As a transitional society inevitably heading 
for liberalization and social plurality, China should be treated with a 
more nuanced approach and therefore the targeting policy from the 
outside world to help promote the press freedom will see better 
results. One immediate policy implication for the western countries is 
to help educate, train and empower Chinese journalists, especially 
those with more free spirit but sidelined, instead of criticizing the 
lack of press freedom in China.
                            self-censorship
    I have to say the ``evil mastermind,'' if there is any, is a shadow 
sitting in my own mind or the minds of every Chinese journalist: that 
is self-censorship. Self-censorship is the major form of media control 
in China. Self-censorship in Chinese media is like in the US you should 
be careful not to say anything ``politically incorrect.'' Self-
censoring yourself in China as well is not to say something politically 

incorrect, here politically in the literal sense. The censorship system 
helps enforce the self-censorship by giving guidance in advance and 
making examples, punishing those that crossed the line too far.
  censorship takes effect in recruiting journalists and journalists' 
                               promotions
    Two distinctive groups of journalists: in-system (follow the rules, 
obedient to their superiors and always get the best opportunities) and 
those living on the edge of the system. You cannot write what you are 
not allowed to write; but, as a journalist, you can often refuse to 
write what you don't want to write; Case: Falun Gong. The latter group 
of journalists is often regarded as ``trouble-makers'' in this 
profession. Media organizations want to keep them because their 
articles are more marketable than others. However, these people won't 
have much chance to get major promotions. In China, promotions are 
related to salary, bonus, housing, training opportunities, good beats, 
interesting topics and in one word other people's respect. This group 
of journalists are often discouraged, pushed around and ripped off good 
opportunities. Two ways for these people: go out of the system and work 
for the private sectors or go abroad; swallow their pride and join the 
``mainstream.''
 actical problems for chinese journalists: monopoly of the government 
                            over information
    Personal relations with these ministries are also very important. 
Guanxi plays in Chinese journalism as well. Alternative source: 
scholars, more open-minded and have less restraint to speak. How much 
you can reply on an non-official source, it depends on which area you 
are talking about. The ownership of China's information was still very 
much held in the hands of the government, statistics, market research 
and opinion polls are very much controlled. In many cases, only the 
government control the information, for example, when a policy is to be 
let out and what the policy might look like. Since China is not a 
democracy, government agendas and policy 
debates are more or less held in black box. Journalists therefore 
depend on government for information. So going back to alternative 
source, if in economic news, you have much more other resources you can 
rely on, more critics that like to jump out to make comment. But you 
talk about, for example, arms control, you very much rely on the 
foreign ministry and Moftec for any information since the think tanks 
in this field rely on the government as well.
    Government officials took journalists, especially journalists from 
the mainstream media groups, as ``their own people.'' They would talk a 
lot, I guess even a lot more than American government officials would 
do, to the reporters. On the other hand, journalists in turn will watch 
for the ends of these officials, sifting through things provocative or 
sensitive, which might bring troubles to this official. In many cases, 
journalists know much more about the story behind than they appear to, 
i.e., the articles published. That is the rule of the game. Chen Xiao 
was put onto the 
blacklist of Moftec. Nobody talks to him ever. You could write one 
provocative story or two, but then you lost your jobs afterwards. You 
have to do something else.
                                 ______
                                 

                  Prepared Statement of Lhundup Dorjee

                             march 10, 2003
    My name is Lhundup Dorjee and I speak here today on behalf the 
Capital Area Tibetan Association [CATA]. Before I begin, I would like 
to thank the Commission and the staff for providing us this opportunity 
to speak here.
    As I speak here right now, members of the Tibetan community here, 
joined by our American friends and supporters, will be gathered in 
front of the Chinese Embassy to mark the anniversary of a very tragic 
event that took place in Lhasa, the capital city of Tibet, 44 years 
ago. On this day in 1959, Chinese Communist troops massacred thousands 
and thousands of Tibetans--men, women and children--monks, nuns and 
lay--who had gathered together in spontaneous demonstrations to protest 
the Chinese occupation of their country and to protect the life of 
their young leader, the Dalai Lama. Finding indiscriminate fire 
insufficient, Chinese troops rained artillery shells into the crowds of 
innocent people to kill the maximum. The Chinese soldiers spent days 
turning over the dead bodies of monks in the hope that the Dalai Lama's 
body could be found among them. Yet for us the events of that day 44 
years ago resonate with meaning and significance far greater than the 
tragedy, for it was a day on which the heroism, courage and bravery of 
our people found expression as never before, in the face of China's 
brutal might, and stirred the collective consciousness of a new Tibetan 
identity, one that united all Tibetans--from Kham and Amdo regions as 
well as Central Tibet. The Chinese government describes March 10, 1959 
as the quelling of a rebellion. We Tibetans call it the Tibetan 
National Uprising Day and we proudly commemorate it every year in the 
free world remembering our common sacrifices and rededicating ourselves 
to the cause.
    Many waters have flowed through the river Tsangpo in Lhasa since 
then. Or maybe, tears would be more apt, instead of water, for the 
suffering of our people under Chinese occupation was unprecedented and 
immeasurable. Or maybe it should be blood, for more than a million 
Tibetans have died as a result of their rule. Sadly, the situation in 
Tibet is not getting any better today, the veneer of economic 
development taking place there notwithstanding; a veneer that many 
well-meaning observers seem to take as a sign of progress. I would urge 
the members of the Commission to look beyond this veneer in assessing 
the situation in Tibet for it masks issues of far greater and critical 
importance for Tibetans. These are the transfer of Chinese settlers to 
Tibet reducing Tibetans to a minority in their own homeland, economic 
and educational marginalization of ethnic Tibetans, gross violation of 
human rights, severe political repression, systematic efforts to 
undermine Tibetan culture and language, and environmental degradation.
    While the fact of economic development taking place must be 
accepted by us Tibetans, it should be pointed out that since the 
Chinese government is implementing economic development as part of a 
strategy to consolidate their colonial rule in Tibet, and not for the 
sake of improving the lives of ordinary Tibetans, the results of 
economic development, in fact, tend to exacerbate the negative impacts 
of many of the issues mentioned earlier and will worsen the situation 
further in the long run.
    His Holiness the Dalai Lama, the leader of all Tibetan people, has 
long advocated and pursued a path of peaceful, negotiated solution by 
working with the Chinese. However, the Chinese government has spurned 
his efforts and vilifies him repeatedly. It is said that China is 
banking on a strategy of waiting for him to die to solve the Tibetan 
problem for good. It will be tempting for China to think this will be a 
smart option since the Dalai Lama is a powerful symbol of the Tibetan 
freedom struggle and unifies all the Tibetans. In spite of the visit of 
a delegation of exiled representatives to Tibet in the past year, it is 
not clear if China really has had a genuine change of heart and 
reviewed this strategy. If not, this would be a very serious mistake. 
In my opinion, if the Tibetan problem is not resolved during the 
lifetime of the 14th Dalai Lama, China can be assured of long-term 
instability in the region. We hope that the new generation of leaders 
in Beijing will shed aside their arrogance and suspicions, and find the 
wisdom to realize that the only path that can be good for both the 
Tibetan and the Chinese people is one that involves working with His 
Holiness the Dalai Lama.
    Thank you.
                                 ______
                                 

                   Prepared Statement of Nury Turkel

                             march 10, 2003
 china's western development program and its deleterious impact on the 
                       lives of the uyghur people
    It is a real honor to be in here. I would to thank the 
Congressional-Executive Commission on China for giving me this 
opportunity to address some of the issues, which are of the gravest 
concern to the Uyghur people in East Turkestan.
    The political situation in East Turkestan has been worsening 
increasingly, especially after September 11. Despite many criticisms 
and warnings by the United States government and human rights groups, 
China's persecution of the Uyghurs in the name of the War on Terror has 
escalated. As a result, more than 3,000 Uyghurs have been arrested, and 
a percentage of whom were executed. At this crucial moment, the Uyghurs 
desperately need the attention of the international community listen to 
their grievances to urge the peace-loving people of the civilized world 
to make the distinction between terrorists who seek to take innocent 
lives and those who simply seek self-defense from a brutal and 
intolerant regime. Here, I would like to address a few important issues 
for your attention; (1) the Chinese communist chief, Wang Lequan's 
recent statement in which he proposed the policy whereby Uyghurs live 
with economic adversity, and intentional destruction of ancient Uyghur 
buildings and sites in Kashgar, (2) the expulsion of the Uyghurs from 
Chinese cities, and (3) China's denial of the foreign media requests' 
to cover the 
recent earthquake in the Kashgar region.
           destructive nature of china's ``go west'' campaign
    The migrant Chinese have been the primary beneficiaries of the 
western development program in East Turkestan; however, the Uyghurs are 
paying a huge price for it. China watchers believe that China's western 
development policies are designed to bring more prosperity to the west. 
Such a belief contradicts the reality of the unemployment and economic 
disparity which are rampant among the Uyghurs. Media reports indicate 
that the government favors Chinese who have migrated to the area over 
their more qualified Uyghur counterparts in its hiring practices. The 
Secretary of the Chinese Communist Party in Xinjiang, Wang Lequan's 
recent statements further disprove such a belief. At a recent meeting, 
when Wang stated that it is wrong to believe that economic development 
would help reduce and eliminate separatist activity in Xinjiang, he 
implies that government's priority should be that of cracking down on 
separatist activities. This demonstrates that Chinese governments' real 
intent of developing the West is not to win over ethnic minorities in 
those areas but to attract more ethnic Chinese migrants into the region 
in order to change irrevocably the demographic structure of the region 
in the favor of the ethnic Chinese. Resulting changed demographic 
structure, in turn, would help the government's long term policy of 
assimilating the Uyghurs into the Chinese. China's such discriminatory 
policies against Uyghurs are a blatant violation of its obligations 
under the U.N. Convention on the Elimination of Racial Discrimination 
which was ratified by China in 1982.
    So called ``Western development'' not only facilitates China's 
attempt to make the Uyghurs second class citizens in their own homeland 
but also to destroy the Uyghurs' cultural identity. Foreign travelers 
have expressed their disappointments when they witnessed the 
disappearance of central Asian charm and destruction of the valuable 
Uyghur cultural heritage. The pace of the destruction is breathtaking. 
The community has been destroyed, the charming neighborhoods are gone 
with no compensation, and people have been rusticated. Today, ancient 
city of Kashgar, that is considered the cradle of Turkic civilization 
in Central Asia is virtually unrecognizable.
    At the same meeting, Wang also called for a fight against Uyghur 
dissent on the ideological front. He stated, ``Xinjiang must promote 
patriotism and the unity of nationalities education, and resolutely 
condemn the distorted history promoted by ethnic separatists, including 
the history of ethnic development and religious progress.'' ``Xinjiang 
must sow the ideas in the minds of people to preserve stability.'' 
Wang's statement further displays the hidden intent to wipe out the 
Uyghur identity. This has been achieved by Beijing's waging relentless 
destruction of Uyghur culture. People are identified by their culture, 
rather than not by their religion, race and facial complexion. The 
Uyghurs are very proud of their cultural heritage despite their long 
suffered humiliation and cultural annihilation. Locking up historians, 
burning books, and destroying historic sites, and imposing Chinese 
language education are not a recent phenomenon but rather a continuing 
effort by the authoritarian Chinese regime to wipe the Uyghurs out from 
the face of the earth. Since 1949, the Uyghurs have born the brunt of 
these destructive policies especially during China's notorious Cultural 
Revolution; and now they face even greater danger. The intentional 
destruction of the Uyghur cultural heritage is a violation of the U.N. 
convention adopted by UNESCO which China is a signatory country. Such 
reckless acts perpetuated by the Chinese authorities constitute harmful 
impoverishment of world heritage.
        uyghurs are facing discrimination both at home and china
    Not only the Uyghurs are facing myriad types of discrimination and 
unspeakable treatment in East Turkestan but also in China. It has been 
reported that the Uyghur residents of Beijing has been expelled and 
even forcefully sent back to their hometowns. That is causing enormous 
social tensions and discontent, and it appears to be increasing. A 
Uyghur woman in Beijing told Western journalists that Uyghurs are not 
allowed to work and live in Beijing, she, herself, had been ordered to 
leave. She also said, millions of Han Chinese can go to East Turkestan 
and do whatever they want but that hundreds of Uyghurs may not live in 
Chinese cities. Police harassments, denial of lodging, and disapproval 
of business licenses are commonplace in Chinese cities thanks to the 
Chinese propaganda that portrays the Uyghurs as ``terrorists.'' This 
indoctrinated belief of the local Chinese and government's tacit 
condonation of the mistreatment of the Uyghur people has created 
enormous 
frustrations and humiliations among the Uyghurs. Some of the Uyghur 
``economic migrants'' are forced to go to Chinese cities to look for 
jobs because of the lack of employment opportunities in East Turkestan 
where all the jobs are taken by the Han Chinese. In fact, Chinese 
authorities are trying to limit Uyghurs' employment opportunities and 
economic resources wherever possible in order to make the Uyghurs think 
of nothing but their most basic survival; so that the people do not 
have the luxury of independent thought.
     denying access to information in east turkestan has deep roots
    China has been enforcing strict media censorship in past decades. 
Such censorship can best serve China's objective to keep its brutal 
crackdown on political dissent behind the closed doors and thereby 
mislead the world and its own people with false information. This has 
even been true during times of natural disaster. Denial of access to 
and dissemination of information in East Turkestan is not a sporadic, 
but rather is systematic. It has been reported that the Chinese 
authorities have turned away foreign journalists who came to cover the 
devastating earthquake which took more than 266 lives, injured 4000 and 
left tens of thousands homeless in Kashgar's cold winter. Despite the 
ban, several foreign journalists have entered the areas, at their 
personal risk of being arrested and expelled they filed their reports. 
The remaining international media have been restricted to using only 
still photographs, or news received from the Chinese State media, this 
includes CCTV, the only national TV network whose members are given 
access to disaster areas. The network is mainly broadcasting pictures 
of Chinese soldiers helping thousands of disaster victims. However, no 
independent observers have been admitted into the disaster areas, while 
witnesses are disputing the official death toll and the effectiveness 
of the rescue efforts. Foreign media have been systematically banned 
from using the real footage of the recent earthquake. This clearly 
demonstrates how the Chinese authorities mislead the foreign media in 
order control the flow of information.
    The very existence of the Uyghur people is threatened. The human 
rights situation is worsened day by day as the civilized free world 
watches Chinese authorities' continuing to wage cultural genocide 
against the Uyghur people. The people of East Turkestan need help from 
the free and democratic world to put pressure on the Chinese government 
and urge it to respect the fundamental human rights of the Uyghur 
people. We hereby respectfully ask the United States government to 
appoint a special coordinator at the State Department to monitor the 
human rights situation in East Turkestan.
    Thank you very much for your kind attention in this very important 
matter.
                                 ______
                                 

                  Prepared Statement of Greg Walton\1\

                         monday, march 10, 2003

                       Great Wall, Small World\2\

    Washington DC.--Good afternoon. Thank you to the CECC Staff for 
organizing this forum. I have followed the proceedings of the 
Commission since its inception, and note with interest the real 
progress being made with regard to understanding human rights, the rule 
of law, and the Internet in China.\3\
---------------------------------------------------------------------------
    \1\ CECC Open Forum, Monday, March 10, 2003, at 2 PM in room 2200 
of the Rayburn House Office Building. http://www.cecc.gov
    \2\ The Great Firewall of China, Xiao Qiang and Sophie Beach http:/
/www.cpj.org/news/2002/China--Firewall25aug02.html;
    The Small World problem. S. Milgram Psychology Today, 2:60-67, 1967
    Citations: http://citeseer.nj.nec.com/context/302442/0
    \3\ Noting particularly the innovative roundtables: China's Cyber-
Wall: Can technology break through? (11/04/02)http://www.cecc.gov/
pages/roundtables/110402/index.php?PHPSESSID= 
544c601e2b3f199980e642804f9e84d1; the quality of the contributions to 
Wired China: Whose Hand is on the Switch? April 15, 2002 http://
www.cecc.gov/pages/roundtables/041502/index.php
---------------------------------------------------------------------------
    My name is Greg Walton. I am an independent research consultant 
focused on the impact of the Internet on human rights and democratic 
development--particularly in Asia. [I will reference the URL of my 
eJournal for supporting documentation and further written testimony I 
wish to submit for the record.]\4\
---------------------------------------------------------------------------
    \4\ http://go.openflows.org/cecc
---------------------------------------------------------------------------
    I have no affiliation to any organization. However, I have working 
relationships with a number of international human rights NGOs, and 
other groups and individuals, engaged in advancing human rights in 
China--particularly in the digital sphere--through Internet activism or 
``hacktivism.'' By ``hacktivism'' \5\ I mean specifically the adoption 
and extension of universal human rights principles and mechanisms to 
the needs of an information-based society\6\--``including where this 
runs counter to the preferences of authoritarian regimes.'' \7\
---------------------------------------------------------------------------
    \5\ Hacktivism and Human Rights: Using Technology to Raise the Bar: 
http://www.cultdeadcow.com/panel2001/hacktivism--panel.htm
    \6\ Article Zero::Access Universal, on the occasion of the World 
Summit on Information Society in Geneva. Forthcoming, December 2003
    \7\ What if There is a Revolution in Diplomatic Affairs? David 
Ronfeldt and John Arquilla: http://www.usip.org/vdi/vdr/
ronarqISA99.html
---------------------------------------------------------------------------
    Information Society increasingly employs advanced information and 
communication technologies in daily life. These technologies are--more 
often than not--derived from hi-tech military research programs. 
Sophisticated networks which were originally designed to track the 
movements of troops on the battlefield, for example, are increasingly 
part of the modern surveillance arsenal. Such systems have been 
described as the ``central nervous system of the repressive regime that 
connects the brain to the boot.'' \8\
---------------------------------------------------------------------------
    \8\ http://www.amnesty.ie/news/2001/irelandarms.shtml The use of 
the term arms trade has the effect of making many people think that it 
is only tanks and guns and weapons of mass destruction that are the 
problem . . . By focusing solely on weapons and torture equipment, we 
can ignore the fact that in some cases it is state of the art 
technology and communications equipment that allows repressive 
governments to monitor and arrest human rights defenders and pro-
democracy campaigners. Electro-shock equipment and leg irons may be the 
visible implements of torture but it is the use of global positioning 
devices and call interception equipment that enables a government to 
track the movements of its opponents.
---------------------------------------------------------------------------
    My own preliminary research suggests that the application of such 
so-called ``neutral,'' dual-use technology is a double-edged sword. It 
can easily be abused in the hands of totalitarian governments--in fact, 
in the absence of democratic accountability, nationwide data base-
driven surveillance systems--for example--will be used against the 
interests of the general public in a systematically destructive way:\9\ 
it's a path that gradually but inevitably suffocates civil society.
---------------------------------------------------------------------------
    \9\ http://www.ichrdd.ca/english/commdoc/publications/
globalization/goldenShieldEng.html [English] http://
Internetfreedom.org/gb/articles/1069.html [Chinese]
---------------------------------------------------------------------------
    Now, more than ever, it is critical for technologists to act 
responsibly: one suggestion within a trust model inspired by the 
Hippocratic Oath--``Above all, do no harm.'' \10\
---------------------------------------------------------------------------
    \10\ http://www.almaden.ibm.com/software/dm/Hippocratic--Data 
bases/hippocratic.pdf--scientists at IBM Almaden are working on a 
system where ``contracts'' are created between data bases and 
administrators/primary users to ensure the privacy and integrity of 
data. This contract system is based on 10 principals, including 
stipulations that the information will be kept accurate and up-to-date, 
the data is used solely for what it was specifically collected for, and 
the data is only retained for as long as it is needed.
---------------------------------------------------------------------------
    The fundamental question that should be asked is, ``Does this 
technology expand the democratic experience, or does it cause 
irreparable damage? '' It is a given that any technology can be abused 
by the enemy's of democracy. But, going by the averages, does the 
technology do more good than harm?
    This afternoon, I would like to present a snapshot of my inbox last 
week and 
examine how the development of two parallel Internet routing 
technologies underscores the importance of these questions in everyday 
China.
    Developed in the labs of a cutting-edge hi-tech corporation, the 
first set of routers are governed by code that restricts--closing down 
the free flow of information, and deployed right across national 
networks hard wired for centralized control.
    The other network of routers, a shared resource developed around an 
open source protocol, opens up secure, decentralized channels of 
communication--connecting 
people in a secure, private, trust-based environment.
    A respected industry consultant in Beijing characterized the 
current end-user 
impact of the ``closed'' routers as being as if all China's online 
population were ``breathing through the same tiny air hole.'' \11\
---------------------------------------------------------------------------
    \11\ Michael Iannini, general manager of Nicholas International 
Consulting Services Inc. in Beijing. ``Through this hole the government 
has set up many filters,'' he said. http://www.securityfocus.com/news/
2907: China's Web surveillance slows access even as government promotes 
Internet use. [The Associated Press Mar 5 2003]
---------------------------------------------------------------------------
    In obvious contrast, the open network of routers seeks to expand 
the global democratic sphere through ``peer-to-peer technology that 
makes it possible to carry out almost any Internet activity securely 
and--more importantly, for all sorts of 
reasons--anonymously.''
    There is little time for extended analysis so I hope to allow the 
facts speak for themselves.
    So in our first story\12\ AP reports that China's Internet users 
are ``suffering sharp slowdowns in access, which industry experts blame 
in part on heightened efforts by the communist government to police 
online content.'' The BBC reports that ``these problems have worsened 
as Security operations in China have been stepped up as the annual 
National People's Congress continues in Beijing'' \13\
---------------------------------------------------------------------------
    \12\ ibid.
    \13\ http://news.bbc.co.uk/2/hi/asia-pacific/2828433.stm
---------------------------------------------------------------------------
    The Commission's staff will be aware that these problems emerged in 
October after ``packet-sniffer'' software was integrated into key 
routers on China's Internet backbone--this was following the 
redirecting of Google's domain name.\14\
---------------------------------------------------------------------------
    \14\ http://www4.gartner.com/DisplayDocument?doc--cd=110031: The 
Chinese government commonly blocks access to sites it deems to have 
inappropriate content, but it has never before 
redirected users trying to access certain domains to other Web sites. 
Doing so turned a political decision into a trade problem.
---------------------------------------------------------------------------
    It was also noted at the time that Chinese authorities were 
systematically hijacking the domain names of thousands of Websites--
including some belonging to the U.S. Government, human rights 
organizations, and other civil society organizations.\15\ Banned topics 
include human rights and the outlawed Falun Gong spiritual group.\16\ 
The result is a huge--quite intentional--bottleneck, and a much slower 
service, especially at ``sensitive'' times. This was at the same time 
that ICANN--the body that governs the global Domain Name System (DNS)--
was meeting in Shanghai.\17\
---------------------------------------------------------------------------
    \15\ http://www.dit-inc.us/
    \16\ http://www.wired.com/news/politics/0,1283,56699,00.html
    \17\ http://www.icannwatch.org/article.pl?sid=02/10/07/
151227&mode=thread ICANN's China Question.
---------------------------------------------------------------------------
    I would like to draw the commissions attention to forthcoming 
research by Dynamic Internet Technology Inc.\18\ I would like to 
highlight their growing understanding of how this system is working 
today, and why it leads to sharp slowdowns during ``sensitive'' 
periods.
---------------------------------------------------------------------------
    \18\ http://dit-inc.us, forthcoming, http://www.dit-inc.us/hj-09-
02.html for background.
---------------------------------------------------------------------------
    The main body of the DIT Inc research--part of a series of in-depth 
briefings that I believe will be released over the coming months, 
provides explanation of the routing mechanism, exhaustively explores 
the keyword list that triggers the domain name hijacking system.
    The second story--that is the other set of Internet routers I'd 
like to touch on today comes from an eWEEK Labs review in which the 
magazine evaluated a beta version of the developers edition of the Six/
Four System [Hacktivismo], which 
became available last week\19\ under the Hacktivismo Enhanced-Source 
Software 
License Agreement [HESSLA].\20\
---------------------------------------------------------------------------
    \19\ http://www.eweek.com/article2/0,3959,919681,00.asp
    \20\ Full text of the Hacktivismo Enhanced-Source Software License 
Agreement is available at: http://www.hacktivismo.com/hessla.html
---------------------------------------------------------------------------
    The Six/Four System is eWeek reviewers found that ``Hacktivismo 
hasn't quite achieved its goals. The peer-to-peer network, which relies 
on many node clients with some trusted peers that handle routing, is 
understandably very small right now. Also, the Six/Four System's 
capabilities are very raw.''
    This is a fair analysis: It should be noted that this version of 
Six/Four is a developer release. My understanding is that, once an 
intuitive application interface has been developed and localized--and 
once a significant user base has been installed in the liberal 
democracies--I anticipate the tool will be widely distributed in China. 
My prediction/hope is that Peer2Peer computing--Six/Four and systems 
like it\21\--will render state sponsored censorship ultimately 
impossible.
---------------------------------------------------------------------------
    \21\ Freenet-china.org for example.
---------------------------------------------------------------------------
    I understand that a number of the CECC Commissioners and Staff are 
tech-savvy and will submit further details of the Six/Four system for 
the record.\22\ The Commission will note among the feature set, what 
the U.S. government classifies as munitions-grade encryption.\23\
---------------------------------------------------------------------------
    \22\ http://www.hacktivismo.com/news/
modules.php?name=Content&pa=showpage&pid=19
    \23\ http://cryptome.org/DOC--BIS.pdf
---------------------------------------------------------------------------
    So which of these technologies expands the democratic process--
which constricts? Which of these technologies does more good than harm? 
To human rights--to civil society--to business?
    The HESSLA license agreement says that anyone using the code 
released under it must respect digital human rights: that is to say, 
software distributed under Hacktivismo ``enhanced source'' license will 
be legally prohibited from censoring or spying on users. The 
Hacktivismo legal team was very careful to define that anyone using 
code released under it must respect privacy, free expression, due 
process and other human rights.\24\
---------------------------------------------------------------------------
    \24\ http://cryptome.org/hack-cow.htm
---------------------------------------------------------------------------
    In contrast DIT's research is examining in some considerable detail 
how Chinese authorities redirect or ``hijack'' proscribed domain names. 
I think--that for the first time--and this is what is really remarkable 
about this research--DIT are evolving a robust and reproducible 
methodology, accurate across provinces and ISPs. I believe part of the 
motivation in publishing the in depth briefs is in the hope that other 
researchers can further their own studies in the implementation of 
China's Internet censorship and surveillance system.
    In brief, as DIT researchers explore Chinese networks they are 
finding that the domain name hijacking is implemented systematically on 
a nationwide basis and regardless of ISP. They found there is a key 
word list--and yes--it does change from time to time--the more 
``sensitive'' that day is in the Communist calendar--the longer the 
word list--the slower the connection. The system seems adaptive--maybe 
it is even ``learning.''
    What intrigues me, is that a handful of routers sited very close to 
the international gateways are ``sniffing'' millions of dns requests 
each second. Based upon CNNIC bandwidth surveys these devices are 
processing a certain amount of traffic. They must be fairly 
sophisticated.\25\ One can't but help wonder about the provenance of 
this technology. If it was designed by a western corporation it seems 
ironic that not only does this one sale effect millions of individuals 
rights--it also impacts international business productivity.\26\ 
Perhaps ``people don't realize we're exporting censorship.'' \27\
---------------------------------------------------------------------------
    \25\ Perhaps a best-of-class Intrusion Detection System of some 
sort: [applied across an entire country].
    \26\ http://news.bbc.co.uk/2/hi/business/2264508.stm: The cost of 
China's Web censors.
    \27\ http://hacktivismo.com/news/
modules.php?name=News&file=article&sid=229: Lee Tien, senior staff 
attorney for the Electronic Frontier Foundation, the online civil 
liberties group in San Francisco.
---------------------------------------------------------------------------
    Understanding the impact of surveillance networks on China means 
recognizing a society often in the grips of a shadowy security 
apparatus--a truly Kafkaesque legal system without any apparent logic 
or Rule of Law; an economy without transparency--whole sectors rife 
with corruption. The context of China is a state without democratic 
accountability. Exporting dual-use technology to China is about placing 
technology in that political context: a profoundly anti-democratic 
context.
    I would ask that the Commission further investigate the reality of 
Internet censorship and digital surveillance in China and then apply 
appropriate pressure to all levels of the Chinese government.
    This is particularly the case with regard the growing number of 
Internet prisoners that Amnesty International\28\ has recently noted 
constitute a new class of prisoner of conscience--for a new form of 
crime.\29\
---------------------------------------------------------------------------
    \28\ China: Internet users at risk of arbitrary detention, torture 
and even execution http://www2.amnesty.se/aidoc/press.nsf/thisweekpr/
80256AB9000584F680256C78004EEF43?open document
    \29\ See George Orwell, 1984.
---------------------------------------------------------------------------
    The Chinese authorities must release all those currently detained 
or jailed for using the Internet to peacefully express their views or 
share information:

          Everyone detained purely for peacefully publishing their 
        views or other information on the Internet or for accessing 
        certain Web sites are prisoners of 
        conscience. They should be released immediately and 
        unconditionally.\30\
---------------------------------------------------------------------------
    \30\ http://www.dfn.org/focus/china/netattack.htm: Attacks on the 
Internet in China: Chinese individuals currently detained for online 
political or religious activity. Digital Freedom Network provides a 
list of individuals currently detained for online activity. DFN has 
also compiled a list of Chinese legal actions and site shutdowns since 
January 2000 that restrict online expression. These lists are updated 
regularly. DFN also has a useful page containing the latest news 
related to Net restrictions in China (http://dfn.org/focus/china/
chinanetreport.htm).

    I hope the Commission particularly to regularly re-examine the role 
of U.S. corporations engaged in exporting equipment that enables 
censorship and surveillance infrastructure in China.
    Finally I would urge the Commission to take every opportunity to 
remind governments and corporations that international legal 
instruments are clear:

          International law requires that: online free expression shall 
        not be restricted by direct or indirect means, such as 
        censorship, restrictive governmental or private control over 
        computer hardware or software, telecommunications 
        infrastructure, or other essential components of the electronic 
        networks. The right to privacy, anonymity and security includes 
        the protection from arbitrary massive surveillance of either 
        content or association online as well as the right the choose 
        privacy technology such as cryptography to protect 
        communication.

    My belief in global Internet freedom is based upon an understanding 
of communication as the universal driving force of human civilization, 
and as the foundation of individuality, as well as community:

          Everyone has the right to freedom of opinion and expression; 
        this right includes freedom to hold opinions without 
        interference and to seek, receive and impart information and 
        ideas through any media and regardless of frontiers.\31\
---------------------------------------------------------------------------
    \31\ The Universal Declaration of Human Rights, Article 19.
---------------------------------------------------------------------------
                                 ______
                                 

                   Prepared Statement of Ciping Huang

                             march 10, 2003
    My name is Ciping Huang, I am the Secretary General for the 
Overseas Chinese Democracy Coalition and a Council member and Human 
Rights Committee chair for the Independent Federation of Chinese 
Students and Scholars. I am speaking on 
behalf of these two organizations today.
    My topic today is about women's issues in China, which I have 
wanted to make since I attended the roundtable discussion on the same 
subject organized by this Commission on February 24, 2003. I was not 
satisfied with the way the subject was presented on that date, which 
was on a similar path with the other subjects that were presented at 
this Commission.
    As I have talked to your staff before, I feel strongly that this 
Commission should concentrate more on the Chinese human rights issues 
due to its founding background in the PNTR debate and its mission to 
monitor human rights and the development of the rule of law in China. 
Despite this mission, although I understand the conditions and 
limitations, I feel the Commission has focused more on other issues 
such as the Chinese economic situation with respect to American 
business enterprises, instead of the Chinese human rights condition and 
the needs and demands of the Chinese people. I feel it is extremely 
important for the Commission to have more of our fellow Chinese testify 
on the human rights abuse conducted by the Chinese Government and its 
officials, testimony which the Commission has been short of. Here 
again, I would like to offer assistance and help when you need to 
locate victims and witnesses to testify in this regard.
    Coming back to the women's issues in China, I want to point out 
that the conditions described in your February 24, 2003 discussion are 
not quite to the essence of the problem. On one side, I understand 
there is a time limit to discuss such a big and complicated problem and 
I do understand the scholars' and experts' insight and detail on 
certain aspects. On the other side, I have learned that many scholars 
have restricted themselves from a harsh criticism of the Chinese 
Government in concern for the typical retaliation from that government, 
which would simply not allow them to go back to China or sabotage their 
studies and discredit them afterward. The Chinese Government has 
arrested and harassed Chinese born scholars in the past; they have 
upgraded this harassment from green-card holders to US citizens, and 
now the threat and fear has reached even further. The arrest and trial 
of several scholars such as Gao Zhan, Li ShaoMin and Xu ZeRun are just 
a few of their escalated episodes that have received media attention. 
Their 10 months of detention of Dr. Yang JianLi without any 
communication by him to the outside, even to his family, nor any other 
legal proceeding nor trial is not just violating international 
standard, but also Chinese law itself.
    Under this type of harsh environment for the scholars, I feel more 
than ever a responsibility to stand out to speak for our fellow Chinese 
people, especially the unfortunate Chinese women. As a second daughter, 
I have experienced sexual discrimination myself from the birth. Even as 
the most outstanding student, I had to take a lesser job or other 
position due to the fact that I was a woman. My boss told me to my face 
that he must place me in a less desirable position because I was a 
woman. Even now, my female classmates and friends have lost their jobs 
to the male counterparts because of their sex.
    Of course, there is a social background supporting this issue. 
However, for a government boasting perfect equality such as ``women 
will hold half the sky'' and a government that is so successful 
carrying out their policy of suppressing dissidents and religious 
believers, one has to wonder why they could not carry out their slogans 
and policies for women. Women lack not just social and economic status 
but also political status in China. Taking the recently opened People's 
Congress as an example, only about 20 percent are women. There was an 
even smaller fraction of women in the main decisionmaking body of the 
Chinese Communist Party Congress that was just closed last November.
    There have been very limited yet well revealed stories in the press 
about how women are treated in China. They were the victims of 
ignorance in the past. With the economic development in China, they are 
further and further dragging behind the men and have become victims of 
cheap labor and exploitation, not just economically, socially, but also 
sexually. The highest suicide rate for women in the world is in China. 
This fact alone is one of the best pieces of evidence.
    There is widespread knowledge of the present surge of prostitution, 
women trafficking, female fetus abortion, and abortion and 
sterilization of women. 84 percent of women experience sexual 
harassment. However, let me summarize the areas of my greatest concern 
for Chinese women in regarding their rights:

          1. The growth of China's economy is built on the abuse of 
        human rights, especially of women, via the parity of lack of 
        employment opportunity for women and cheap labor exploitation 
        of young girls.

                  a. Engaged in ``Little-sister labor,'' many teenager 
                girls who go to the city for a job in a factory not 
                only lose their opportunity for education, but also 
                become vulnerable for lower pay and unfair treatment 
                without protection, even sexual harassment.
                  Take the quote (which is not the worst of all) from 
                the report a few months ago (as my second attachment), 
                about young girls working in foreign ventures making 30 
                cents an hour for 16 hours a day, with only 2 days off 
                every month. In these kinds of places, these young 
                girls are not just exploited economically; some were 
                taken advantage of sexually and even raped by the 
                managers and owners of the factories.
                  b. With the diminishing of State Owned Enterprises 
                (SOEs), women are losing their social warfare and 
                health benefits altogether.
                  Even according to data permitted by the Chinese 
                Government, nearly half of the unemployed female laid 
                off workers experience age and sex discrimination when 
                they try to find a new job. A women over 35 years old 
                usually has no hope of finding a job unless she has 
                strong connections or excellent skill. My sister was 
                thrilled to get a senior engineer job which 
                specifically required: ``male and younger than 35 years 
                old,'' she was the only exception for that company, 
                which is the biggest one in my hometown of more than 
                300,000 population.
                  If one thinks these kinds of job ads are not 
                respecting women, one will find that the ones seeking 
                women specifically are only worse.
                  Take as an example, a newspaper ad to recruit a 
                janitor: ``Female, under 25 years old, pretty, slight, 
                over 160cm in height, no education required.'' My 
                friend read me another ad seeking flight attendants who 
                must be 
                ``virgin.''

          2. Women's rights are worsened along with the ``free market 
        economy,'' which included the loss of their own freedom and 
        liberty, even social status.
          I want to emphasize to this Commission that, although many 
        perceive the economic growth in China, nevertheless, it has not 
        helped to improve women's conditions. As a matter of fact, it 
        only opened more cracks to make women fall into as victims. The 
        system under the Chinese Government only lets such a ``free 
        market economy'' to be free to abuse women's rights.

                  a. In worsening family violence, sexual annoyance, 
                and sexual assaults, many women find themselves to be 
                in abusive positions, and some fall into the 
                victimization of human trafficking.
                  b. Young prostitutes are in the millions. In poverty-
                stricken areas, girls specifically have lost their 
                education rights as a result of the collapse of the 
                iron rice bowl. Many go to cities for a rosy promise, 
                but only find themselves working as ``Little-sister 
                laborers,'' or even as prostitutes. Some are sold to 
                cities or even abroad as prostitutes. For example, the 
                number of prostitutes in Malaysia has increased 
                dramatically since 2000. Most of them come from China.
                  Women become the victim of AIDS due to the sexual 
                exploitation. These women infected with AIDS do not 
                dare to reveal their disease, not to 
                mention having any hope to be taken care of.
                  A recent story was about a father who had to pretend 
                to be a customer to meet his kidnapped teenage daughter 
                who had disappeared for 3 months and was already forced 
                to receive about 700 customers!
                  How outrageous this kind of crime is! Yet the Chinese 
                Government seems so weak to wipe out this ``social 
                virus'' as effectively as they wipe out the dissidents' 
                voice. Why? The ones conducting these types of crime 
                are often local officials, police, or at least 
                associated with these governmental authorities, so 
                unlike the powerless young girls, they make money and 
                escape law without punishment. Recently, there were 
                several cases of police brutality in China. Young girls 
                were forced to make confessions of prostituting and 
                paying fines and go to jail. They were more fortunate 
                because eventually they were freed to claim their 
                innocence after getting examinations to prove that they 
                were virgins.
                  c. ``Er Nai,'' a new term for concubines, has not 
                only become the most popular term in China, but is more 
                in practice for wealthy and powerful men in the last 
                few years.
                  When I was visiting China in 1998, I mistakenly went 
                to a bathhouse, which had a massage center that turned 
                out to be a place for men to pick up young girls for 
                the night. As I was wondering why there were no female 
                customers, I got my opportunity to learn the sobbing 
                conditions and environment these homeless girls have. 
                Now, I have learned that the situation has only gotten 
                worse for these girls with the further economic 
                development in China. Nevertheless, when I was talking 
                to these hopeless girls, to be some well off man's ``Er 
                Nai'' was a better outlet for them.

          3. Along with the loss of women's rights is the loss of 
        rights and even lives of baby girls and unborn female fetuses.

                  a. There is a high rate of female infanticide and 
                baby girl abandonment.
                  Under the Chinese Government's One Child Policy, this 
                issue really became aggravated. Millions of baby girls 
                and fetuses have been killed and aborted. If we say 
                this issue reveals the low status of women in China, 
                then the government's capacity of being able to carry 
                out the One-Child Policy yet unable to protect the 
                lives and happiness of the innocent female babies and 
                fetuses is the indication that their strict policy is 
                very selective. It is the government that forced such 
                policy on the unwilling citizens who do not have many 
                other choices. It is the government that forced the 
                women to have sterilization. It is very clear that they 
                too ignore human lives, which is in coherence with 
                their abuse of human rights.
                  An official datum is that, for every 100 girls in 
                China, there are more than 120 boys. Some suggest that 
                the number of boys is even higher.
                  Along with the birth or just pregnancy of female 
                infants, is the lost status of the mothers who do not 
                bear sons. Some women are discriminated against for 
                that reason, or even become an excuse for the husbands 
                to file for divorce and/or seek other women. Some of 
                them are driven to suicide, contributing to the 
                previously mentioned highest world rate.
                  b. The position and value of female children is 
                decreasing.
                  Especially in poor areas and for poor families, 
                female children are under greater pressure than their 
                male siblings to discontinue schooling. The subsequent 
                neglect of the care and education for a female child is 
                still prevalent. Girls have very difficult chances to 
                get into competitive and reputable colleges for higher 
                education. In my class, only 10 percent of the students 
                were girls.

          4. Women's social, economic and health benefits are 
        decreasing.

                  a.Women do not have their adequate health benefits, 
                along with other social benefits. Sometimes, the 
                minimum ``benefit'' was built on the fact that their 
                human rights were violated. As an example, in a factory 
                in WuXi, a well-developed city close to Shanghai, the 
                female workers received free feminine napkins but were 
                required to submit evidence of their menstruation and 
                were subject to search and examination of their private 
                parts in order to get a fair pay. Termination was the 
                likely result if one was discovered to be pregnant.
                  I know of women who wait to die instead of seeking 
                treatment because they cannot pay the hospital bills. 
                The lady (with the enlarged neck due to lack of iodine) 
                presented in the recent PBS show ``China in Red'' is 
                one of them.
                  b. For the women experiencing domestic violence, the 
                government and the society do not provide adequate 
                protection. When some women report men's brutality to 
                the police, the answer is like: ``Men do what men do.''
                  Just on February 10, Ms. Su ChunMei, a 33-year-old 
                woman, was 
                critically injured when her husband threw her out from 
                the third floor. According to official Chinese 
                Government data, at least 34 percent of Chinese 
                families have different degrees of domestic violence. 
                32 percent of people (mostly men) admitted violent 
                behavior against their spouses.
                  c. Unfair divorce and child custody is increasing.
                  The divorce rate is climbing in China. Not only do 
                the divorced women get a smaller or even virtually no 
                share of their property and housing, but also lack 
                protection from the abusive husbands future abuses. 
                There are reports about revengeful husbands killing the 
                ex-wives. Yet, in contrast, women do not have much to 
                say, nor much to take when husbands leave them for 
                whatever reason, even a new women.

          5. Last but not the least, Chinese Government systematically 
        suppresses the human rights of our fellow Chinese, especially 
        of religious believers and political dissidents.
          In particular, there are large-scale abuses and torture 
        against female Falun Gong members and underground church 
        members, not to mention ordinary female prisoners. Besides 
        being refused food and water, female detainees are often 
        sexually abused, even gang raped by male jail mates and 
        officers. There are incidents where the officers intentionally 
        throw the female prisoner into all male cells for hours of 
        sexual abuse even rape. There is police brutality of not only 
        taking female prisoners clothes off, but also using electric 
        shock and hot iron bars to burn nipples and lower body parts.
          Of course, there is some limited struggle for the suppressed. 
        One such effort is by a group of Tiananmen mothers who spend 
        painstaking effort to collect names and details about the 
        victims of the June 4, 1989 students movement. Lost their own 
        loved ones to that massacre, they recorded deaths, seek 
        justice, and speak out for the rights of others such as the 
        Tibetans and have left a bright mark for the Chinese women's 
        record of defending their human rights.
          I speak here not just for these women whose rights are 
        offended, but also for these people who defend their rights. I 
        am speaking here not just to let this commission to know the 
        terrible human rights condition in China, but also to seek this 
        commission's sympathy and help to push for Chinese human rights 
        in your capacity. Hereby, I want to urge the Commission not to 
        forget these powerless and voiceless youth and not to let the 
        superficial economic development details cover up the very fact 
        of the severe Chinese human rights abuses.
          I also want to point out the wrong approach of a suggestion 
        to take the All China Women's Federation as an NGO, or at least 
        treat it as such even though knowing it is really a Chinese 
        Government agency. It is well known that there is no real 
        workers' union in China that is permitted and admitted by the 
        Chinese Government. The so-called the All China Workers' Union 
        is really an organ of the Chinese Government to support their 
        effort of exploiting workers' rights rather than to protect the 
        workers and promote their rights and benefits. Well, the All 
        China Women's Federation fares no better than the All China 
        Workers' Union. To work, to associate with, even to help and 
        fund these types of organization not only contributes to 
        suppression of the Chinese, but also deceives freedom loving 
        American taxpayers.
          Finally, I want to thank this Commission for paying attention 
        to women's issues. However, I must decry an effort to isolate 
        these problems without emphasizing their connection to the 
        Chinese human rights problem. Hereby, I want to emphasize that 
        the women's problem in China is very much a human rights 
        problem. I wish this Commission will pay attention to this 
        issue and play a positive role in the improvement of women's 
        rights in China.
          I am submitting to you, in addition to the full text of my 
        speech, some other materials as reference and supplement. 
        Attachment 1 is my suggestion to the Commissioners and staff of 
        CECC on February 3, 2003. There is much more material both in 
        English and in Chinese on the subject, both in the traditional 
        news media and on the Web, that I will not submit at this time.

    Thank you for giving me the opportunity to speak.
                              attachment 1
    My suggestion to the Commissioners and staff of CECC on February 3, 
2003:

          1. CECC is a commission established after the PNTR debate in 
        the Congress in 2002. Its primary mission is and should be ``to 
        monitor human rights and the development of the rule of law in 
        China.'' Unfortunately, since the Commission officially got 
        functioning 1 year ago, it has focused much more on the Chinese 
        economic details than its human rights conditions.
          2. In an effort to monitor the Chinese human rights 
        condition, I suggest the Commission to get more Chinese to 
        testify on the Chinese human rights abuse reality, instead 
        concentrating on American scholars and American business 
        associates' detailing the Chinese economic situation. As I have 
        offered before, I will be happy to assist the staff if you do 
        not know enough of Chinese contacts and I will be happy to help 
        you to establish communication and provide potential candidates 
        within the Chinese dissidents community and victims who have 
        suffered human rights abuses in China.
          3. On CECC's Web page, there is a victims registry part that 
        has provided nothing on it. Well, we surely could have many 
        contributions, either from the political prisoners, or Falun 
        Gong members, or underground church members, etc. If the 
        commission needs help to collect data and detail, we will be 
        glad to help.
          4. At end of the each session, it is nice to have a Q&A 
        session from the Commission representatives and staff. What I 
        would like to know is if it is possible for the attendees (with 
        positive ID and credentials) to ask questions as well, in case 
        of oversight. I think this would help the session to be more 
        well covered and balanced and provide motivation and sense of 
        participation for those who care about the Chinese human rights 
        condition, as well as the well being of this Commission.
    Thank you very much for your attention.

                                   - 

</pre></body></html>
